<html>
<title> - PRESIDENT BUSH'S PROPOSAL TO CREATE A DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-560]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-560

 PRESIDENT BUSH'S PROPOSAL TO CREATE A DEPARTMENT OF HOMELAND SECURITY

=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             JUNE 20, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs


80-607              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
            Michael L. Alexander, Professional Staff Member
              Richard A. Hertling, Minority Staff Director
               William M. Outhier, Minority Chief Counsel
                Ellen B. Brown, Minority Senior Counsel
          Jayson P. Roehl, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     3
    Senator Levin................................................     5
    Senator Collins..............................................     7
    Senator Carnahan.............................................     8
    Senator Voinovich............................................    10
    Senator Durbin...............................................    13
    Senator Bennett..............................................    15
    Senator Dayton...............................................    16
    Senator Cochran..............................................    18
    Senator Cleland..............................................    18
    Senator Stevens..............................................    19
    Senator Akaka................................................    21
    Senator Bunning..............................................    22
    Senator Carper...............................................    23
    Senator Fitzgerald...........................................    24

                               WITNESSES
                        Thursday, June 20, 2002

Hon. Tom Ridge, Director, Office of Homeland Security............    25
Hon. Gary Hart, Co-Chair, U.S. Commission on National Security 
  for the 21st Century...........................................    58
Hon. Warren B. Rudman, Co-Chair, U.S. Commission on National 
  Security for the 21st Century..................................    60

                     Alphabetical List of Witnesses

Hart, Hon. Gary:
    Testimony....................................................    58
Ridge, Hon. Tom:
    Testimony....................................................    25
    Prepared statement...........................................    77
Rudman, Hon. Warren B.:
    Testimony....................................................    60

                                Appendix

President's Proposed Bill for Homeland Security..................    84
President's Proposal for the Department of Homeland Security.....   119
Excerpts from ``Road Map for National Security: Imperative for 
  Change,'' March 15, 2001, The Phase III Report of the U.S. 
  Commission on National Security/21st Century...................   148
Colleen M. Kelley, National President, National Treasury 
  Employees Union, prepared statement............................   170

Questions for the record and responses from:
    Hon. Tom Ridge...............................................   184
    Hon. Gary Hart...............................................   211
    Hon. Warren B. Rudman........................................   215

 
 PRESIDENT BUSH'S PROPOSAL TO CREATE A DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        THURSDAY, JUNE 20, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Levin, Akaka, Durbin, Cleland, 
Carper, Carnahan, Dayton, Thompson, Stevens, Collins, 
Voinovich, Cochran, Bennett, Bunning, and Fitzgerald.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The Committee will come to order.
    Good morning. This morning, the Committee returns to its 
consideration of the creation of a new Department of Homeland 
Security--a focused domestic defense agency which would guard 
our great country against those who seek to suppress our values 
and destroy our way of life by terrorizing our people.
    Our challenge and our responsibility, after September 11, 
is to adapt, respond, and reform to protect the American people 
from future terrorist attacks. There should be no contention on 
this matter. We have so much more strength, wealth, talent, and 
technology than our enemies have, and we have our enduring 
faith, unity, and patriotism to guide us in our work.
    If you look at American history, you see two remarkable 
realities, which is that no matter how much we change to meet 
the challenges of each succeeding generation, we have stayed, 
in essence, the same people with the same values. Now we have 
got to change again to become not just safer, but better. In 
part, this is a matter of executive reorganization, but it is 
also more broadly a test of whether we can transform the 
people's government at a time of crisis against the friction of 
entrenched interests while protecting our fundamental freedoms.
    The urgency of our circumstances after the terrorist 
attacks of September 11, requires us to proceed with a singular 
focus on swiftly creating a new department of our government 
that has an unequivocal mission, broad jurisdiction, defined 
lines of authority, and adequate resources to get the job of 
homeland security done.
    In our work here, we have strong foundations to build on--
the excellent work done by the Hart-Rudman Commission, whose 
co-chairs we will hear from today. The proposal reported out of 
this Committee last month, and the President's proposal of 2 
weeks ago, all call for a Cabinet-level Homeland Security 
Department.
    I am very grateful that the President's plan is, in many 
respects, similar to our Committee's proposal. That will 
certainly make our work here more manageable, but there are 
differences between the two plans, and we will have to 
reconcile them.
    We must also be open to construct the additions of ideas 
not included in either proposal or adequately covered in either 
proposal. Remember, we are not trying to create the biggest 
department here possible, but we are determined to build a 
structure that will give the American people the best 
protection we can give them.
    With all due respect to some who will criticize this 
reorganization, this is not about rearranging the deck chairs 
on a sinking ship; this is about building a stronger ship of 
state that is better equipped to carry the American people 
safely through the rough waters ahead.
    Now among the unsettled questions we face in our work are 
the following:
    First, we have to improve the collection of domestic 
terrorism intelligence, and decide how best to redress the 
awful lack of coordination and information sharing among key 
agencies of our government. The FBI and the CIA, now appears to 
have been the most glaring failure of our government leading up 
to September 11.
    The Committee's legislation would create a statutory office 
for combatting terrorism within the White House to oversee such 
coordination. The President's proposal would create an 
Information Analysis Center in the Department of Homeland 
Security which would collect and analyze intelligence.
    Neither proposals may be adequate to meet terrorist 
threats. Others have suggested, for instance, that we should 
take an even bolder step by creating a domestic intelligence 
agency similar to those in Britain and other European 
countries, perhaps within the Department of Homeland Security, 
perhaps outside it. We should consider those alternatives and 
others as well.
    Second, we must determine how best to integrate the 
resources and expertise of our military into this effort. The 
Department of Defense itself is in the process of being 
refocused to meet the challenges of asymmetrical, high-tech 
terrorist threats. A new modern command headquartered in 
Colorado Springs, Colorado, is being created, which will take 
on the responsibility of homeland defense for the Pentagon. So 
a Department of Homeland Security that ignores these evolving 
plans of our military will be the weaker for it.
    Third, we must optimize coordination between the new 
Department of Homeland Security and the hundreds of thousands 
of local police officers, fire fighters, emergency response 
workers, and public health officials on the front lines in our 
States, counties and municipalities. Those professionals, those 
public servants can be critically important, not just as first 
responders, but as intelligence gatherers. They must be in the 
mix, not on the sidelines, as we formulate this new agency. 
They will need to receive significant additional funds to do 
the job that we are asking them to do.
    I know there are likely to be other important areas that 
will need resolution and clarification, but I feel very 
strongly that this cannot be a leisurely process. Slowly, but 
surely, will not do it in this case. We must proceed swiftly 
and surely because our terrorist enemies have clearly not 
abandoned their intention to do the American people terrible 
harm.
    So I hope to move this legislation through the Committee 
and to the Senate floor by mid-July. I hope we can pass it and 
send it to the President by September 11, at best, or by the 
end of the session, at least.
    After September 11, the meaning of security has changed in 
America. The painful fact is that we allowed ourselves to 
become vulnerable, but as we rebuild and raise our defenses, we 
must not grow fearful, we must not begin to believe that future 
successful terrorist attacks are inevitable or that future loss 
of American life must be accepted as a necessary casualty of 
freedom. That is why we need to raise our guard and organize 
our strength quickly and surely in this new department.
    A long time ago, in 1777, William Pitt, the elder, advised 
the British, with regard to the feisty colonies that had broken 
away from the Crown that by securing their freedom, America 
cannot be conquered. Two hundred and twenty-five years later, 
we will prove Pitt right again.
    Creating a Department of Homeland Security now is, in fact, 
a direct fulfillment of the mission that those feisty and 
principled Founders of ours gave us, who are privileged to 
serve today in our Federal Government when, they wrote the 
Preamble to our Constitution. ``To form a more perfect union, 
establish justice, ensure domestic tranquility, provide for the 
common defense, promote the general welfare, and secure the 
blessings of liberty to ourselves and our posterity.''
    When we come together in this session of Congress to create 
this new department, as I am confident we will, we will have 
formed a more perfect union, ensure domestic tranquility, 
provide it for the common defense, and secure the blessings of 
liberty to ourselves and our posterity.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman.
    The legislation we are considering today has been preceded 
by a national consensus that is rarely achieved. Most Americans 
now clearly agree that deficiencies in our homeland security 
must be addressed for reasons too obvious to mention.
    A structural change in our Executive Branch institutions, 
and hopefully later on our Legislative Branch, clearly, will be 
part of the solution to making our country safer.
    I am very pleased that Governor Ridge could be here with us 
today. Governor, you are, without a doubt, the Nation's 
foremost expert on President Bush's reorganization proposal, 
and I must say your leadership over the past 10 months has been 
outstanding. You effectively coordinated the Federal 
Government's response to several different crises and built 
from scratch the Office of Homeland Security. You have also 
been a reassuring presence to the American people.
    We are also joined today by Senators Hart and Rudman. It 
took courage a year and a half ago to propose a massive 
reorganization of Federal Government's homeland security 
efforts. Prior to September 11, there seemed to be no reason to 
reorganize on such a grand scale, yet you were not detered. You 
pressed on. Today, you can say you had the right idea and can 
be credited as the fathers of the concepts behind the 
President's proposal and Senator Lieberman's bill. Gentlemen, 
you displayed a considerable foresight in devising your 
proposal, and your country owes you a debt of gratitude.
    When this Committee considered Senator Lieberman's bill, I 
had thought that, while a new statutory framework with a head 
confirmable by the Senate was necessary, a coordinator of the 
many government agencies relating to homeland security was 
probably preferable to a new department. It seemed impossible 
to bring in all of the homeland security-related agencies into 
a new department. Mainly, I thought that it would be impossible 
to pass any legislation without the support of the 
administration, and that we should wait until the 
administration had an opportunity to make its own assessment. 
Well, now it has done so.
    Over the past 10 months, the President's Office of Homeland 
Security closely examined every facet of our homeland security 
effort. It considered numerous homeland security organization 
proposals that emerged from outside studies, commissions and 
Members of Congress. The administration eventually came to the 
conclusion that reorganization on a grand scale needed to be 
done.
    The President's proposal would not have been possible had 
the administration not taken the time to conduct this 
comprehensive review. This legislative proposal is unique in 
many ways. Reorganization on this scale has not occurred for 50 
years. It moves 22 agencies and programs, with just 170,000 
employees, in a total proposed fiscal year 2003 budget of 
nearly $38 billion.
    While it is very bold in scope, it is very brief in detail. 
It gives the new Secretary broad authority to organize his new 
department without telling him how to do it, unlike other 
reorganization proposals of the past. While I think that this 
is a good thing for the most part, it will surely engender much 
discussion, as it should. We should not shy away from the fact 
that while some bureaucracies will be reduced or eliminated, we 
are creating a large new bureaucracy with new leadership, a new 
culture, and a new mission. It is going to be complex and 
difficult.
    However, even advocates of smaller government realize that 
it is a mission vital to the security of this Nation. 
Protecting the citizens of this country is the most important 
responsibility of this government. This new department must 
improve communication between our border agencies, protect our 
critical infrastructure, provide up-to-date analysis of the 
threats facing our Nation, and improve and streamline 
coordination of the Federal Government's emergency response 
efforts.
    Moreover, it will also have to work to ensure that the new 
department has a clear mission understood by all of its 
employees, sufficient research and development capacity, as 
well as adequate talent for its new Intelligence Analysis Unit.
    Now, during this process, we should also consider what 
tools that we must give the administration and the Secretary 
for this new department. The President has requested that the 
Secretary be given great latitude in redeploying resources, 
both human and financial. I believe the Secretary will need as 
much flexibility as possible. The ability to develop its own 
acquisition system, for example, would be an invaluable tool 
for this new department.
    Information technology is not something that the Federal 
Government does very well, but in this new department, 
information technology must serve as a key backbone by tying 
different offices together and allowing the department to share 
and analyze critical information.
    Moreover, the department should have significant 
flexibility in hiring processes and compensation systems and 
practices. Homeland security is too important not to have a 
high-performance, accountable workforce. Creating a results-
based framework of clear strategic and annual goals linking 
day-to-day operations to these goals and understanding results 
being achieved should be guiding principles for this new 
organization.
    But while considering what this new department must, and 
should, do, let us be clear about what creating this new 
department will not do. It does not address what I consider to 
be the most immediate and troubling deficiencies in our 
country's intelligence and counterintelligence/counterterrorist 
capabilities.
    The areas of most immediate concern, quite frankly, even 
more than reorganization in our battle against terrorism, have 
to do with the collection, analysis and dissemination of 
intelligence information. Clearly, the FBI, the CIA and other 
intelligence-related agencies are in need of substantial 
reform, a different mind-set and a different way of doing 
business. Reform must be done, not as a part of homeland 
security legislation, but within those agencies themselves.
    Finally, Mr. Chairman, I know that we are going to work 
long and work hard under your leadership and the initiatives 
that you have already taken in this area. Because of the scope 
of what we are doing, the importance of what we are doing, and 
the fact that once passed into law, this new framework will be 
a part of the American fabric forever, let us take the time 
necessary to carefully consider all of the issues presented by 
this legislation. Then we can move forward together with the 
confidence that we have truly taken a major step toward 
enhancing our Nation's security.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Thompson, for the 
very thoughtful statement. I look forward to working with you 
on this with the same sense of purpose, and shared purpose, 
that you and I have had in so many other matters we have worked 
on together.
    Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. Thank you for your 
leadership in this area. The bill that you have introduced, and 
which we have now passed in this Committee and is now on the 
calendar, is going to be the bill that we will use as the 
beginning point, the starting point for what has to be done and 
has to be done quickly.
    I want to join you in welcoming Governor Ridge and our 
witnesses. He has done an outstanding job in the few months 
that he has been on the job, and we want to thank him for that. 
As we look forward to changes that have to be brought about, we 
do not want to overlook the work that he has done.
    We should not kid ourselves or the public about the 
complexities involved in developing this major reorganization. 
We know you have to crack some eggs to make an omelette. We 
have to make sure that when we crack the eggs, we don't end up 
with scrambled eggs.
    For example, the agencies that are being proposed to move 
to a new department are, in many cases, agencies that are 
currently broken--the INS, to name just one. We have to make 
every effort to reform agencies that need reform as we move 
them to a new department, rather than simply transferring a 
broken agency, and that is going to take some time and some 
real effort.
    Of particular concern to most of us is whether or not this 
department is going to improve the coordination and the 
analysis of intelligence information. As important as the 
restructuring of our agencies and functions is, it pales in 
significance when compared to the need to change and reform the 
way in which we do not adequately analyze and utilize 
intelligence information. I am going to come back to that in a 
moment, but first a word of history.
    We have been around this block before many times in the 
last 15 years. Starting in 1986, when the Director of the CIA 
created the DCI Counterterrorist Center, or the CTC, for the 
CIA to defeat terrorism, a major responsibility of the CTC was 
to coordinate the intelligence community's counterterrorist 
activities and the sharing of information. When one goes to the 
Central Intelligence Agency's website and reads the functions 
of the Counterterrorist Center, it sounds exactly like what 
still needs to be done.
    The CTC's mission is to assist the Director in coordinating 
the counterterrorist efforts of the intelligence community. And 
now I am reading the website of the Counterterrorist Center. 
``By implementing a comprehensive counterterrorist operations 
program to collect intelligence on, and minimize the 
capabilities of, international terrorist groups and State 
sponsors; exploiting all source intelligence to produce in-
depth analyses of the groups and States responsible for 
international terrorism; coordinating the intelligence 
community's counterterrorist activities.''
    Sound familiar? It is what still needs to be done and what 
has not been done.
    In 1989, with the explosion of the Pan Am jet over 
Lockerbie, the Counterterrorist Center was showcased as the 
promising innovation to respond to that terrorist act in a 
coordinated and effective way.
    In 1994, President Clinton issued a presidential decision 
directive to foster increased cooperation, coordination and 
accountability among all U.S. counterintelligence agencies. 
That directive created a new structure under the National 
Security Council, a new National Counterintelligence Center, 
led by a senior executive in the FBI, and it required the 
exchange of senior managers between the CIA and the FBI to 
ensure close and timely coordination between the two agencies. 
That directive was issued after a review of intelligence 
operations following the Aldrich Ames espionage investigation 
and highlighted the need for improvements in the coordination 
of our counterintelligence activities, and on and on.
    After the terrorist embassy attacks in Nairobi and 
Tanzania, the general counsel of the CIA was quoted as saying 
that the CIA and the FBI had to confront their lack of 
cooperation, but that they were making some headway in the 
investigation.
    In September 1998, after a meeting of more than 200 
officials from across the country in Washington to discuss 
emergency preparedness, in light of the growing fear of 
terrorism, the domestic preparedness coordinator in Atlanta was 
quoted as saying, ``even we often do not know who to talk to at 
the Federal level.''
    Addressing the failures of coordination, both within 
agencies and between agencies, is not just a question of 
coordination between our agencies, it is a question of 
coordination within agencies, which we have found does not 
exist in our intelligence hearings which are going on right 
now.
    So, as important as the shifting of functions is from one 
agency to another so that we have a much greater Homeland 
Security Agency with responsibility and accountability--it 
pales in significance when compared to the need to get our 
intelligence act together, to put together the information in 
one place, where it can be assessed, where it can then be acted 
upon, and most importantly, where somebody can be held 
accountable. That accountability does not exist now. We must 
make sure that it is created, and I consider that to be our 
greatest chore.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Levin.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman, for convening 
this hearing.
    Our purpose, which is to begin examining President Bush's 
proposal to create a new Department of Homeland Security is of 
utmost importance. The decisions that Congress will make over 
the next several weeks on reorganizing the Executive Branch 
will have both near- and long-term consequences for the 
preservation of our democratic institutions, our national 
security, and the success of the war against terrorism.
    Two of our distinguished witnesses this morning, former 
Senators Warren Rudman and Gary Hart, have noted that we face a 
threat that is neither conventional war, nor traditional crime, 
and combatting it requires new government structures, new 
policies, and new thinking. They are absolutely right.
    The President has recognized that reality by proposing a 
bold and unprecedented reorganization of the Executive Branch 
to bolster homeland security. Since September 11, much has been 
done to make our Nation more secure. Congress has approved 
billions of dollars to help beef up security. The 
administration has created an Office of Homeland Security and 
proposed tens of billions of dollars in additional spending to 
secure our borders, protect critical infrastructure and train 
first responders.
    The President has also recently signed into law legislation 
to help us deter, detect and respond to a bioterrorism attack. 
There is still much work that remains to be done, including 
reorganizing the Federal Government to provide the best 
possible structure to deal with the current and future threats 
to our security.
    One must improve coordination among Federal, State and 
local governments, as well as the private sector. We must have 
adequate funding. We must avoid wasteful duplication. We must 
have realistic plans and effective training and exercises. We 
also must ensure that information about the presence of 
terrorists and potential threats is shared among Federal 
agencies so that the Berlin Walls that have impeded 
communication and cooperation are taken down once and for all.
    As many as 100 Federal agencies, with hundreds of thousands 
of Federal employees, now share responsibility for homeland 
security. When that many entities are responsible, nobody is 
really accountable, and turf wars and bureaucratic barriers are 
inevitable. The President's plan may not be perfect and there 
are many questions, but it certainly represents an excellent 
beginning. It will remedy many of the weaknesses in our current 
structure, including a patchwork of agencies and the resulting 
lack of focus, poor communication, myriad jurisdictional 
rivalries, and the inadequate sharing of intelligence and 
information generally.
    The magnitude and complexity of the tasks before us are 
daunting. The implications of our decisions are great. While we 
cannot afford to rush to a judgment that we will later regret, 
we also cannot afford to delay. We must get this one right, for 
our future may well depend on it.
    Chairman Lieberman. Thank you very much, Senator Collins. 
Senator Carnahan.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman.
    Governor Ridge, I want to thank you for answering your 
country's call to duty during such perilous times. Our Nation 
is very grateful.
    In one of Shakespeare's plays, two people meet who have not 
seen each other for some time, and one does not recognize the 
other. The one that is unrecognized explains: ``Grief hath 
changed me since you saw me last.'' Well, grief, and fear, and 
insecurity have changed the face of America, and we are now 
having to think about things that we did not even dream as 
being imaginable many years ago. During this time of 
uncertainty, the American people are looking to their 
government for leadership.
    Since September 11, under the guidance of Senator 
Lieberman, this Committee has been laying the groundwork to 
develop a national strategy to secure our homeland. We learned 
from our hearings that our government is currently not 
structured to meet the new threats that we face. We responded 
by reporting an excellent bill that would create a Department 
of Homeland Security, and now we will be perfecting that bill 
in light of the President's proposal.
    I commend President Bush for his decision to support the 
creation of a Homeland Security Agency, and I pledge to work 
with him to create a strong, effective, and well-equipped 
agency, one that is robust and ready. The American people 
rightly demand that the first duty of the Federal Government is 
to provide security. So we should give this department the 
personnel and the resources it needs to get the job done. I 
think it would be a mistake to set arbitrary limits at the 
beginning of the process; rather, we should establish a clear 
mission for the department, then dedicate the resources needed 
to accomplish that mission.
    As we set about the task of creating the new agency, I want 
to raise a couple of general thoughts about the capabilities 
that we will need.
    First, this agency, more than most, will have to coordinate 
with State and local governments. Homeland security is a joint 
responsibility, requiring a partnership of effort. We need to 
do a better job of making sure that States and localities have 
the resources they need. I have heard repeatedly from 
responders in Missouri that they lack the funds for basic 
equipment to respond to national security threats. Remarkably, 
despite the clear intentions of Congress, very little funding 
has made its way down to the local level since September 11. I 
hope that improving this situation will be among the new 
agency's priorities.
    Second, coming from the Heartland, I believe it is 
important for the administration to focus on developing a 
strategy to avoid agro-terrorism. Because our farmers feed the 
world, we need a comprehensive effort to protect our food 
supply, and we need to implement it right away.
    Finally, I would like to learn more about the President's 
proposal to create a division dedicated to protecting Americans 
from bioterrorism and weapons of mass destruction. I have been 
focusing on the issue of dirty bombs. The DOD authorization 
bill that is on the floor contains requirements for the 
Department of Energy to develop plans for securing radiological 
materials around the world.
    Of course, in light of the recent detention of Jose 
Padilla, we need to increase our vigilance in protecting 
radiological materials right here in the United States. I will 
be interested to learn about the administration's plans to do 
this.
    I want to thank Governor Ridge, Senator Hart, and Senator 
Rudman for testifying today. As I said, Senator Lieberman, you 
have led well, and I know you will continue to point the way in 
this new effort.
    I want to close by saying that during the past 9 months, we 
have heard a great deal about threats, and plots, and dangers, 
and they certainly do exist, and because they do we must be 
vigilant, but we must not be fearful. I take solace in the 
words written by the late Jack Buck, whose passing we mourn 
this week. Just after the attacks on September 11 he wrote, 
``With one voice we say, as our fathers did before, we shall 
win this unwanted war, and our children will enjoy the future 
we will be giving.''
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Carnahan.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I commend you 
for being one of the Senate's first responders to the 
President's proposal to create a new Department of Homeland 
Security by scheduling this hearing so expeditiously.
    I extend a warm welcome to our distinguished witnesses, 
including Homeland Security Director Tom Ridge, who I have had 
the pleasure of working with in the National Governors' 
Association and the Council of Great Lakes Governors. It is 
comforting, Tom, to know that you have been working on this 
issue for quite some time. I also welcome Senator Hart and 
Senator Rudman.
    On June 6, the President announced his proposal to the 
Nation for the largest government restructuring in over 50 
years. The last restructuring of this magnitude resulted in the 
creation of the Department of Defense, the CIA and the National 
Security Council in 1947. The creation of a new Department of 
Homeland Security shows that we are in this fight for the long 
haul, and it will require a commitment from all of us to win 
this war on terrorism at home and abroad.
    As a Federalist, I do not, as a rule, advocate increasing 
the size or scope of the Federal Government, but this is a 
necessary strategic reorganization that will coordinate and 
oversee the full range of domestic security resources to more 
effectively address the new threats and challenges that we 
face.
    Securing our homelands against enemies who have neither 
territory nor government means we have to be more creative and 
proactive. Our critical assets include transportation, 
information network, cyber and telecommunications, energy and 
power plants, financial markets, our public health system, and 
most importantly, our people.
    Protecting Americans from further acts of terrorism is our 
top national priority. It is an enormous job that involves the 
cooperations of hundreds of thousands of dedicated local, State 
and Federal employees who guard the entrances and borders of 
our country, gather and analyze intelligence, protect our 
citizens and investigate leads, make arrests, and respond to 
assist the victims of terrorist attacks.
    These brave Americans are our Nation's fire fighters, first 
responders, Federal investigators, ambulance drivers, health 
care providers, analysts, scientists, and men and women in 
uniform who work around the clock and around the world.
    Fifteen short months ago, in February 2001, the Hart-Rudman 
Commission released its final report on the status of U.S. 
security in the 21st Century. At the time of the release of 
that report, I suspect that no one realized how urgently needed 
the recommendations of that report would be to our national 
security.
    One of the Commission's findings was, ``Attacks against 
American citizens on American soil, possibly causing heavy 
casualties, are likely over the next quarter century.'' The 
Commission further stated that, ``The United States finds 
itself on the brink of an unprecedented crisis of competence in 
government,'' and that ``the maintenance of American power in 
the world depends on the quality of the U.S. Government 
personnel, civil, military, and at all levels.''
    Based on my past experiences, I did not support the initial 
push in Congress to create a new Homeland Defense Agency. As a 
former governor and mayor, I do not believe Congress should 
force a management structure on an administration without its 
input and agreement, and the administration originally did not 
favor the creation of a Cabinet-level department.
    The President's new proposal follows months of analysis, 
and Congress should now work closely with the President to 
expedite the creation and operation of the new agency. Mr. 
Chairman, we must set aside partisan differences to ensure that 
the new Department of Homeland Security has the people, the 
process, and technology to complete its vital mission.
    Many have questioned whether it will work, however, citing 
as examples the past failures of Federal agencies to cooperate, 
communicate and operate with a level of effectiveness that is 
needed to get the job done. I hope that because the 
administration has been so deliberate, and I assume there is 
strong support within the Executive Branch to create the new 
department, that the executives in those departments will rise 
to the occasion and demonstrate the leadership necessary to 
motivate their employees. The interpersonal skills of those 
executives and their commitment are going to be very, very 
important if this reorganization is going to succeed.
    This new agency is a needed step forward, but without also 
making it easier to recruit and retain good people, the 
agency's effectiveness is threatened. Rearranging the furniture 
will accomplish little without the people to sit on it. We have 
a real opportunity with this new department to do it right the 
first time and provide the tools needed for success, including 
the ability to hire, train and retain the right people. The war 
on terrorism has been successful so far. At the same time, 
however, we are losing the war for talent.
    I would conclude that unless you address the personnel 
problem, as so well enunciated in the Hart-Rudman report, this 
reorganization is not going to be successful. Governor Ridge, 
about a third of the people in five large agencies of this new 
department are going to retire by the year 2004 or 2005. So we 
have a critical problem that needs to be addressed.
    I think you know that we have introduced legislation that 
represents a broad consensus on some of the things that we need 
to do across the board to give the government the flexibility 
to attract and retain the best and brightest people in 
government. I would hope that that is a major emphasis of 
reorganization.
    I know that there are some broad flexibilities that you are 
asking for the new department. I would like to see exactly what 
those flexibilities are and how they fit into this legislation 
that I have been working on for the last couple of years and 
see if they can be harmonized.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Thank you, Mr. Chairman. I commend you for being one of the 
Senate's ``First Responders'' to the President's proposal to create a 
new Department of Homeland Security by scheduling this hearing so 
expeditiously. I extend a warm welcome to all of our distinguished 
witnesses, including Homeland Security Director Tom Ridge and former 
Senators Hart and Rudman.
    On June 6, President Bush announced his proposal to the Nation for 
the largest government restructuring in over 50 years. The last 
restructuring of this magnitude resulted in the creation of the 
Department of Defense, the CIA and the National Security Council in 
1947. The creation of a new Department of Homeland Security shows that 
we are in this fight for the long haul, and it will require a 
commitment from all us to win this war on terrorism at home and abroad. 
As a Federalist, I do not, as a rule, advocate increasing the size or 
scope of the federal government, but this is a necessary strategic 
reorganization that will coordinate and oversee the full range of 
domestic security resources to more effectively address the new threats 
and challenges we face.
    Securing our homeland against enemies who have neither territory 
nor government means we have to be more creative and proactive. Our 
critical assets include transportation, information networks (cyber and 
telecommunications), energy and power plants, financial markets, our 
public health system, and most importantly, our people. Protecting 
Americans from further acts of terrorism is a top national priority. It 
is an enormous job that involves the cooperation of hundreds of 
thousands of dedicated local, state, and federal employees who guard 
the entrances and borders of our country, gather and analyze 
intelligence, protect our citizens and investigate leads, make arrests, 
and respond to assist the victims of terrorist attacks. These brave 
Americans are our nation's firefighters and first responders, federal 
investigators, ambulance drivers and health care providers, analysts, 
scientists and men and women in uniform who work around the clock, 
around the world.
    Fifteen short months ago (in February 2001) the Hart-Rudman 
Commission released its final report on the status of our national 
security. One of the Commission's findings was that ``Attacks against 
American citizens on American soil, possibly causing heavy casualties, 
are likely over the next quarter century.'' The Commission stated 
further that, ``The United States finds itself on the brink of an 
unprecedented crisis of competence in Government,'' and that ``The 
maintenance of American power in the world depends on the quality of 
U.S. Government personnel, civil, military, and at all levels.''
    Based on my past experiences, I did not support the initial push in 
Congress to create a new homeland defense agency. As a former governor 
and mayor, I do not believe Congress should force a management 
structure on an Administration without its input and agreement and the 
Administration originally did not favor creation of a cabinet level 
Department. The President's new proposal follows months of analysis and 
Congress should now work closely with the President to expedite the 
creation and operation of this new agency.
    Mr. Chairman, we must set aside our partisan differences to ensure 
that the new Department of Homeland Security has the people, the 
process, and the technology to complete its vital mission. Many have 
questioned whether it will work, however, citing as examples, the past 
failures of federal agencies to cooperate, communicate and operate with 
the level of effectiveness and reliability that is needed to get the 
job done. Because the Administration has been so deliberate, I assume 
that there is strong support within the Executive Branch to create the 
new Department and that the executives will rise to the occasion and 
demonstrate the leadership necessary to motivate their employees.
    This new agency is a needed step forward, but without also making 
it easier to recruit and retain good people, the agency's effectiveness 
is threatened. Rearranging the furniture will accomplish little without 
the people to sit on it. We have a real opportunity with this new 
department-to do it right the first time and provide the tools needed 
for success: including the ability to hire, train and retain the right 
people.
    The war on terrorism has been successful so far. At the same time, 
however, we are losing the war for talent. In May, I met with 
representatives from the FBI Agents' Association to discuss the human 
capital challenges facing their Special Agents. The problems 
confronting their workforce were similar to the ones I have heard about 
from almost every federal department and agency: an aging workforce, 
outdated personnel systems, and not enough new talent coming in the 
door. The meeting solidified my belief that we must conduct a thorough 
examination of the federal government's classification and compensation 
system to assess what is needed by the federal workforce in the 21st 
century. This is more than a human capital management problem; it's a 
matter of national security.
    Classification and compensation reform are only two pieces of the 
human capital puzzle. According to recent findings from the Partnership 
for Public Service, nearly one-third of the employees in the five major 
agencies forming the Department of Homeland Security will be eligible 
to retire in the next five years. Mr. Chairman, I hope that you find 
these statistics as troubling as I do. It is imperative that we provide 
the Administration with new tools to shape and manage a 21st Century 
federal workforce.
    To provide the Executive Branch with a foundation for the necessary 
system, I am pleased to announce that today I am introducing the 
Federal Workforce Improvement Act of 2002. I developed this legislation 
after extensive collaboration and cooperation from key stakeholders, 
including officials from the Bush Administration, former Clinton 
Administration, our federal employee unions and private and non-profit 
sector management experts. It is not the 100% solution to our personnel 
problems, but it provides agencies, managers, and employees with 
enhanced flexibilities and training needed to accomplish their mission.
    We must also consider the human resource proposal submitted by the 
President in his Homeland Security bill. This proposal calls for the 
creation of a Department with significant flexibility in hiring 
processes, compensation systems and practices, and a performance 
management system to recruit, retain, and develop a motivated, high-
performance and accountable workforce. It may be the right solution for 
this agency.
    Mr. Chairman, thank you for your efforts on this issue, and I look 
forward to a lively and engaging discussion with our witnesses.

    Chairman Lieberman. Thank you, Senator Voinovich. Senator 
Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you, Mr. Chairman. Governor Ridge, 
thank you for being here. Thank you for your service to our 
country. I believe all of us have said, and it bears repeating, 
that the President made an excellent choice in asking you to 
take on this historic responsibility. You have handled it well, 
we have enjoyed working with you, and I look forward to this 
experience.
    I want to thank Senators Hart and Rudman for their 
continued service to this country. Your recommendations are the 
backbone for this hearing and for many of the proposals for 
genuine reform, and thank you for that.
    Governor Ridge, let me follow up with Senator Voinovich's 
question because, under his leadership, our Subcommittee has 
focused on this question of resources in the Federal 
Government. There has been no greater leader on the issue than 
Senator Voinovich, who has really reminded us that, as good as 
the ideas may be, we need the very best men and women in 
America prepared to serve our country and to make them work. I 
hope that becomes an important part of this conversation.
    Second, and I think equally important, is to consider the 
technical capacity of the Federal Government today to meet this 
challenge. Several weeks ago, the Attorney General suggested 
that we might initiate a program of photographing and 
fingerprinting many of the millions of visa holders who come 
into the United States each year. Certainly, you can argue that 
that is a valuable law-enforcement tool and that we want to 
protect our Nation and its inhabitants from anyone who comes to 
this country seeking to do something which is evil or wrong. 
But we have to put it in the context of technical reality, and 
the context of technical reality tells us that today we are 
physically incapable of even considering a program of this 
magnitude.
    We were told by the Inspector General at the Department of 
Justice that 6 years ago Congress mandated the Immigration and 
Naturalization Service to keep track of all exit visas in the 
United States. We told them get your act together. We want to 
know who is leaving this country, who had a visa. Six years 
later, they still have not done it, and according to the 
Inspector General, they are years away.
    Three years ago, we told the INS and the FBI, you each are 
collecting fingerprint databases. Merge them into one so you 
can work cooperatively together. Three years ago we gave them 
that mandate. It still has not happened. According to the 
Inspector General, we are still a long way from seeing it 
achieved. So the idea of expanding the collection of this data, 
in a dramatic fashion, to include 100,000, a half-million or 5 
million more pieces of information is certainly an interesting 
goal, but one that is currently unachievable with our current 
technical capacity and level of cooperation between agencies. I 
think this has to be a critical part of this conversation.
    The second thing I would like to point out to you is the 
whole question of food security. It is something we have talked 
about, I have discussed with Secretary Thompson and the 
President, I think that this departmental proposal gets close 
to considering with the transfer of APHIS into this new 
Department of Homeland Security. This is a major vulnerability 
in America that we cannot ignore. The possibility that the next 
attack is going to be against our food supply is sad reality, 
but it is a reality, and we have to focus on it. I hope that we 
can consider, within this new department, some authority to 
bring together the 12 different Federal agencies responsible 
for food safety into one scientific, coordinated effort. I hope 
that can be part of it.
    The final point I will make is this: There was a 
recommendation made by Senators Hart and Rudman, also made by 
General McCaffrey when he testified before this Committee in 
October of last year, which is not part of either Senator 
Lieberman's proposal or the President's, that I would commend 
to all of the Members of the Committee, and that is the 
suggestion of the role of the National Guard in this 
conversation.
    We have an enormous asset in America in our National Guard. 
We spend about $15 billion a year on the National Guard. We 
have men and women who are dedicated to the country and show it 
with the sacrifice that they make, but we clearly can use them, 
I think, more effectively as part of homeland security. That 
was suggested by Senators Hart and Rudman, that they would be 
the front-line force for the defense of America. It was 
suggested by General McCaffrey as well.
    I hope that, as we consider the President's proposal, we 
will go beyond talking of coordination with the National Guard 
and start actively engaging them in being the front line of 
defense in every State of the Nation. This is a role they were 
originally intended to accomplish. It is one that I think they 
can handle extremely well, and I hope that we can utilize their 
great resources and talent to make it happen.
    Thank you for being here today.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Durbin. Senator 
Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you very much, Mr. Chairman. 
Governor Ridge, welcome. Sometime this morning we will give you 
an opportunity to talk, but not very soon. [Laughter.]
    Chairman Lieberman. We are getting there.
    Senator Bennett. I have two themes, neither one of which 
will come as a surprise to Members of this Committee. I have 
discovered there is no such thing as repetition in the Senate, 
and so I will launch on both my themes again.
    First, the recognition that, in today's world, as a result 
of the Information Revolution, a revolution as fundamental as 
the Industrial Revolution was--everything is connected, and it 
is connected by computers, it is connected to cyber activity--
and I commend you, Governor Ridge and the administration, for 
recognizing that in your basic proposal and talking about the 
importance of information sharing and protection of our 
critical infrastructure, as represented by computers and high-
tech connections.
    A terrorist who wishes this country ill could bring us to 
our knees economically without setting off a single bomb. If he 
could get into the telecommunications system, shut down the 
Fedwire, there would be no financial transactions of any kind 
take place in this country. The devastation would be more far-
reaching, admittedly not more deadly in terms of human life, 
but more far-reaching on the economy than a nuclear device set 
off on Manhattan Island.
    Your proposal recognizes this. I want to underscore, once 
again, how important I feel this is. I have a bill that deals 
with it. We have had a hearing on it in this Committee. We have 
had hearings on this issue before the Joint Economic Committee, 
and I want to underscore the fact that you recognize the 
importance of this, you realize that we are in a brand-new 
world, that the private sector that owns 85 to 90 percent of 
the critical infrastructure will not share information about 
cyber attacks with the government unless they can be sure that 
that information, when it is shared, is secure.
    Members on this Committee have heard me on this subject 
many times, but I do not want to let the opportunity pass 
without underscoring it once again and making it clear that I 
am prepared to work with you in any way to see to it that this 
portion of our protection is given the proper significance and 
attention.
    Now the other theme that I have stems from my own 
experience--and, once again, Members of the Committee have 
heard this--I was almost present at the creation of the 
Department of Transportation, which comes closest, I think, to 
being a parallel to what we are doing here. The FAA was a 
separate administration, reporting directly to the President; 
the Highway Administration was in the Commerce Department; the 
Coast Guard was in the Treasury Department--the Coast Guard 
seems to be a nomad, being picked up and moved around all over 
the government here; the Urban Mass Transit Administration was 
in HUD, and all of these agencies, pulled from a variety of 
existing departments and circumstances into a central group.
    When the Nixon Administration took office, and I joined the 
staff of Secretary Volpe, another distinguished New England 
governor who came down to try to pull something together, the 
Department was 18 months old and all over the lot. There was 
little or no cohesion after 18 months.
    And I will not bore you with the details of what I went 
through trying to bring my office together. I was in charge of 
all congressional liaison. Every single one of the groups I 
have described, plus several more, had their own congressional 
liaison operation, and pulling them all together into a single 
operation that was reporting to and, more important, loyal to 
the Secretary, was one of the most significant organizational 
challenges I have had in my young life.
    Now the point I want to make is do not put your initial 
proposals as to how the department will be structured or 
functioned into concrete too soon. We were still making 
adjustments 10 years later, and Congress thought they gave us 
flexibility to do that for a long period of time, and when that 
period of flexibility ran out, we still wished we had it.
    I say to you, Governor Ridge, and to you, Chairman 
Lieberman, let us structure this in such a way that the Cabinet 
officer has as much flexibility as possible, for as long as 
possible, to move boxes around if, after you discover that 
putting one thing here makes eminent good sense the first time 
you do it, and after 9 months or 12 months or 20 months, you 
say, no, it really belongs over here. Let us leave the CEO of 
this giant new corporation that we are creating with the 
flexibility to make those kind of changes on into the further, 
rather than lock him up on the basis of our wisdom between now 
and the end of this year.
    That is the other theme that I feel very strongly about, 
having lived through a similar kind of experience, and I will 
burden the Committee with my expertise again and again on this 
subject because I feel so strongly about it.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Bennett.
    Senator Dayton.

              OPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. Thank you, Mr. Chairman.
    I will echo your remarks, Senator Bennett, with regard, 
when you are hung up through seniority as I am, avoiding the 
futility of repetition or the futility becomes readily 
apparent. As my freshman colleague, Senator Nelson, once 
observed in the Senate, if it has not been said by everyone, it 
has not been said. I will proceed on that basis to, first of 
all, say to you, Governor Ridge, as others have, thank you for 
your very distinguished service to our country at this critical 
time. Senators Hart and Rudman, I say the same to you.
    Mr. Chairman, I thank you for your leadership in this area. 
I also thank you for your initiative with the legislation that 
we are now integrating along with the President's proposals. 
Your foresight in this has already been demonstrated to have 
been quite prescient. Thank you.
    I hope and trust that we can proceed in a good, bipartisan 
way to bring forth this entity that must serve the entire 
Nation and must do so very swiftly. My experience parallels 
Senator Bennett's from the Executive Branch of State 
Government. There, the reorganization of agencies which I 
participated in were in the single digit, rather than in the 
triple digit, and the number of employees involved were in the 
thousands, rather than the hundreds of thousands. I am sure 
that you, as the Governor of Pennsylvania, had similar 
experiences with the perils and pitfalls of reorganization of 
agencies.
    Unavoidably, they involve some measure of short-term pain 
and the hope of long-term gain. In this situation we do not 
have that luxury of time. We need the short-term gain and the 
benefits of this coordination, and we need to sustain those 
benefits over the long-term.
    I would agree with Senator Bennett. I think one of the keys 
is to give maximum flexibility to the new Secretary to shape 
this agency in a way that involves more than just rearranging 
old administrative boxes. That can enable him or her to 
eliminate the redundancies and to create the new synergies that 
are necessary. I also think the problems that the new Secretary 
and management team will face within the new agency may be less 
than without the agency. This is because the major 
intelligence-gathering agencies, such as the CIA, are still 
outside of this entity, as are the major law-enforcement 
agencies, such as the FBI.
    I, in my questioning, would like to inquire as to the 
reasons, the rationale for excluding the major players in the 
creation of this other new major player. I would like to ask 
how it is that it can gain this new entity, the necessary co-
equal working status, the access to information and the 
parallel coordination of activities with these other major 
intelligence and law-enforcement players.
    We have seen the lack of effective communication, between 
the FBI and the CIA. We have seen the lack of effective 
communication within the FBI itself. So how is this new agency 
going to gain the necessary status? How will they create the 
imperative and the willingness of these major agencies to 
communicate and share information?
    Then, in addition to instilling the will to communicate, we 
must provide the way to communicate. I assume that the 
computers and the communications systems within these 100-plus 
different entities that are going to be brought together in 
this new agency are going to be different from one another. In 
many cases, they are going to be incompatible, as evidently the 
FBI's are with the CIA's.
    We have got to provide the necessary funding up front for 
completely new, state-of-the-art computer communications 
systems for this agency. If it is appropriate, for the CIA, the 
FBI hooking up with the National Security Council. We have to 
bring all of us into the modern era. We can afford to have no 
less than whatever is called for in this situation to allow 
these agencies to have as much seamless communication among 
themselves and within themselves, as they can possibly have.
    In that regard, I will just say that, in addition to the 
supreme importance of the selection of the new Secretary of 
this department, is the importance of the selection of a Deputy 
Secretary or someone from the private sector who has the 
experience and expertise with large-scale corporate mergers. 
This person needs to have dealt with these problems on a hands-
on basis so they can provide the maximum amount of expertise 
and coordination so we can avoid the kind of delays that others 
have identified that would be, I think, just crucially 
important in this situation to maximize the expertise we have 
throughout this country, and much of that is in the private 
sector, how we can do this as quickly and as efficiently as 
possible.
    I trust we will pass this legislation very soon so you can 
get started immediately. I think that is very important. Come 
back then and tell us what more is needed, but let us get 
started.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Dayton. Senator 
Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you for convening 
today this hearing to examine, first of all, your legislation 
for creating a Department of National Homeland Security along 
with the President's initiative in establishing the Office of 
Homeland Security and now his proposed legislation to 
reorganize existing agencies under a new department of 
government. I think all taken together are very important 
contributions to enhancing our national security.
    It is clear that winning the war against terrorism and 
defending the American people from terrorist attack will 
require a major reorganization of the government. While 
reorganization by itself will not be sufficient to secure our 
Nation from terrorism, it is a very important step. 
Reorganizing our national security agencies is something that 
has not been done since 1947, and I think we should learn from 
that fact that the product we produce, as a Committee, may very 
well have the same long-lasting effect on our Federal 
Government, as did the reorganization of 1947.
    The proposal before us is very important and deserves our 
very best efforts. I am encouraged, because we are off to a 
genuine, bipartisan beginning in this effort, that we will be 
successful in doing something very positive and important for 
our Nation when we report out legislation to create this new 
department.
    Chairman Lieberman. Thanks, Senator Cochran. Senator 
Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman.
    Governor Ridge, good morning, sir. I am proud to be with 
you. I feel a certain kinship with you, having served in 
Vietnam and having fought that war. I think that you and I grew 
up in an era where those of us who served in the military felt 
that we were doing our country a service and, in effect, 
defending our homeland by serving abroad because we felt that 
the enemy was over there and better to fight them over there 
than here.
    Quite frankly, I am sure, from time-to-time, that you are 
like me in that you never dreamed that you would be using the 
phrase ``homeland defense'' in this particular context. 
Literally, you are trying to figure out not only how the 
military can go on the strategic offensive against the bad guys 
somewhere else in the world over there, but how we can go on 
the strategic defensive over here and organize ourselves in a 
better way that protects ourselves and defend ourselves.
    You may feel, and I have thought about this about your 
position, you may feel like that drunk who was arrested for the 
hotel fire, and he told the police officer that, yes, he was 
drunk, but that bed was on fire when he got in it. [Laughter.]
    In many ways, I am sure you feel that somewhat. This bed 
was on fire when you got in it. We would like to help you put 
that fire out and get better organized in defending our 
country.
    A couple of things that have really come to my mind bear on 
the Armed Services Committee. I have the seat that was formerly 
held by Senator Nunn. He came to our Committee and talked about 
his experience in a mock exercise defending our homeland put on 
by Johns Hopkins last June called ``Dark Winter,'' a mock 
smallpox attack, and he played the role of the President. He 
said a few days into it he got very frustrated with 
bureaucracy. What he was really trying to say was the myriad of 
the different agencies that seem to be unorganized and have no 
clear line of communication or general authority.
    I, also, am reminded of Senator Pat Roberts on the 
committee about 3 years ago was Chairman of the Emerging Threat 
Subcommittee of the Armed Services Committee, and he had a 
wonderful sense of humor. So at one point he called in about 20 
or 30 agencies engaged in so-called homeland defense or 
bioterrorism preparedness and so forth and told them just to 
sit in the chairs in the order that they were organized, and of 
course it was just musical chairs.
    After September 11, we are all in this boat together, and 
we have to figure out a way to better organize ourselves. I 
think, for me, the guideposts for our meeting this challenge 
are, first, does the new organization or the new proposal help 
improve communication, coordination and cooperation--the three 
``C's.'' They seem to be things we have difficulty with, 
whether it is at the intelligence community level or at our 
homeland security level.
    Second, I do feel that the acid test is it must work for 
our hometowns. If homeland defense does not work for our 
hometowns, something is missing, and that is a tremendous 
challenge.
    Third, again, building on the Armed Services Committee, I 
do have some legitimate questions about how the Homeland 
Security Agency, which I will support and was the original co-
sponsor of the legislation that came out of this Committee, how 
that entity interacts with, shall we say, the Coast Guard and 
the National Guard and also the new CINC that will be put in 
charge of military operations in North America and Canada.
    So there are a lot of questions out there, but I just want 
to welcome you to the ``burning bed'' here. We are all in it 
together, and I look forward to putting out the fire.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Cleland. Senator 
Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Thank you, Mr. Chairman.
    I want to tell you, at the beginning, that Senator Byrd and 
I are working on a response to your letter concerning the 
impact of this legislation on the appropriations process.
    Chairman Lieberman. Thank you.
    Senator Stevens. We do hope that you and other Members of 
the Committee will consider our comments. As a former Chairman 
of this Committee, I intend to be deeply involved in this 
process, if possible, because, as my comments will indicate, I 
have some real problems with it, and I have discussed these 
previously with Governor Ridge.
    Last October, the subcommittee of the Commerce Committee 
dealing with Oceans and Fisheries held a hearing on the role of 
the Coast Guard and NOAA in strengthening security against 
marine threats. Following September 11, the Coast Guard 
diverted numerous cutters to secure ports and began missions of 
patrolling waters that approach critical infrastructure, such 
as nuclear power plants, water treatment plant intakes and oil 
refineries. That was appropriate and necessary in that 
emergency, and the Coast Guard performed extraordinarily.
    However, even at that time, the Coast Guard expressed 
concerns that it could not actively patrol the fishing grounds, 
could not enforce the Nation's exclusive economic zone from 
foreign intrusion, and it could not perform other priority 
missions such as search and rescue, narcotics interdiction, and 
its role in terms of maintaining the blockade against Iraq.
    This situation has been attenuated somewhat by resuming the 
normal activities of the Coast Guard, but having watched those 
events, I am really concerned about the role and the mission of 
the Coast Guard in this new department. There are missions that 
are absolutely vital to our total Nation, particularly vital to 
our State of Alaska, which has half the coastline of the United 
States, and the waters off our shores produce half of the fish 
consumed by the United States. When you look at that and have 
the total abandonment of that mission by the Coast Guard, as is 
implied by the concept in this bill, I think that concept 
requires refinement and deep consideration.
    We are entirely in support of the concepts of homeland 
security. The Coast Guard has primarily had a role of external 
security, not internal security. I know, for political reasons, 
we are not going to call this the Department of Internal 
Security, but that is what it will be. To abandon the concept 
of the Coast Guard, in terms of maintaining the safety of ships 
off our shore, particularly the small boat safety in the areas 
of our enormous population centers of the country, would be 
wrong.
    To abandon the role of the Coast Guard in the area of 
maintaining not only the protection of the fisheries, but the 
safety of our fishing fleets, I think if you look at a place 
like Dutch Harbor, and, Governor Ridge, I looked at it for a 
long time because my son used to be captain of one of those 
king crab boats, three times he went out with three other boats 
and came back alone. They were 2,000 miles from the Coast 
Guard. The only thing to save them was the search and rescue 
capabilities of those Coast Guard helicopters. They were not 
available because the Coast Guard had been sent on a new 
Bluewater Mission, in terms of the narcotics interdiction and 
the patrolling of Iraq.
    Now we have tried our best to increase the facilities of 
the Coast Guard to meet their needs, and we have tried to 
ensure that the country understands what it means to the 
coastline, what it means to external security which, from my 
point of view includes the protection of our fisheries. It took 
us 20 years to get the foreign nations out of our waters and to 
restore the capability of protecting the reproductivity of the 
fisheries off our shore. We have done a marvelous job. The 
major fish--pollock--has increased in its biomass 5 to 10 times 
since we started managing it correctly and kept the foreigners 
off of it.
    If the result of this legislation is to take the Coast 
Guard off of that mission, it denies the ability to maintain 
the boats that are necessary to assure the fisheries are 
patroled, we would lose the largest biomass of fish that has 
the greatest productivity for the future of the world.
    I hope that the administration will listen to those of us 
who represent Alaska. It is unfortunate there are just three of 
us who represent half the coastline of the United States, but I 
have been here long enough to think that I can find a way to do 
that, and I hope that you will give us the cooperation to see 
to it that we can do that.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Stevens. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I wish to 
welcome our witnesses. Governor Ridge, it is good to have you 
here. I also want to say good morning to our former colleague, 
Senator Hart and Senator Rudman, and thank you all very much 
for the part you have been playing in our national security and 
for being a springboard for our discussion today.
    I join with the themes and concerns expressed by my 
colleagues. I want to speak about an integral part of the 
responsibility of this Homeland Security Department that hasn't 
been discussed. As we review the administration's proposal for 
Department of Homeland Security, we must not forget the 170,000 
Federal employees who will staff this new agency. I look upon 
this as the hands that will drive and make this new department 
successful.
    It is vital that as we seek to protect America by 
reorganizing the government we do not overlook the fundamental 
rights of our Federal employees. The creation of this new 
department should not be used as a vehicle to advance broad 
changes to existing laws that erode the rights now accorded to 
these Federal employees. These rights do not pose a threat to 
our national security and should not be used as a litmus test 
for the patriotism of the Federal workforce.
    The administration's proposal calls for enhanced management 
flexibilities in hiring, compensation and workforce management. 
Many of the workforce challenges that these flexibilities 
propose to address are not new. I find it interesting to note 
that the Comptroller General convincingly argues that agencies 
already have 90 percent of the tools needed to manage more 
effectively.
    Rather than doing away with what has worked, we should ask 
why agencies are not using the flexibilities they have now. 
Real solutions for civil service reform require strong 
leadership from the top down. There must be a commitment to the 
Federal merit system and the employees it protects.
    The Federal service is a model, fair employer. This comes 
from a long tradition of Congress and the Executive Branch 
working with employee unions and management associations to 
enhance the principles of accountability, openness and 
procedural justice in government. Throughout our Nation's 
history, Federal employees' rights have been compatible with 
national security.
    The right to collective bargaining, a fair grievance 
system, equitable pay and protection from retaliation from 
disclosing waste, fraud and abuse are consistent with homeland 
security. It is important to note that Federal employees are 
prohibited by statute from striking. Their right to union 
representation does not constitute a national security risk nor 
are union members less loyal than other Americans.
    As Chairman of the International Security, Proliferation 
and Federal Services Subcommittee, I will continue to work with 
my colleagues to ensure that our homeland security is 
strengthened and the rights of our Federal employees are 
preserved. These objectives are complementary.
    On September 11, the Federal workforce responded with 
courage, loyalty and sacrifice, reminding us that we are all 
soldiers in the war against terrorism. As we begin the 
difficult task of reorganizing broad segments of the Federal 
workforce into this new department, let us recognize the 
valuable contributions Federal employees make to their 
government and their Nation.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Akaka. Senator 
Bunning.

              OPENING STATEMENT OF SENATOR BUNNING

    Senator Bunning. Thank you, Mr. Chairman, and I would 
especially like to thank Governor Ridge, my former colleague on 
the House Banking Committee and the former governor of my 
adopted State, for being here today. I, also, would like to 
thank Senators Hart and Rudman for their fine report.
    September 11 has forever changed the way this country 
thinks about its safety and security. President Bush's proposal 
to create a new Department of Homeland Security is just one 
more step this administration is taking to protect the American 
people. I would also like to mention the fact that Senator 
Lieberman's bill that came out of this Committee also can help 
both sides merge their ideas in a bipartisan manner.
    The President's proposal is an aggressive plan that will 
affect, as Senator Akaka just said, 170,000 Federal employees 
and will combine everything from FEMA to INS to the 
Transportation Security Administration. Creating this 
department will be one of the biggest endeavors Congress has 
ever undertaken, and it will require a truly bipartisan effort 
on behalf of all of our members, not only on this Committee, 
but on the floor of the U.S. Senate.
    Just like in the forties, when Congress created the Defense 
Department, we need to put our differences aside and do what is 
best for the country. In many respects, the department's 
success and the security of this country will depend on how 
willing we are to do this and to work together. We cannot let 
the American people down. Everybody on this Committee will try 
very hard not to do that. This important issue is too critical 
to the defense of our country.
    We also should not lose sight of the fact that this new 
department will only be one component of homeland security. We 
will continue to rely on the Department of Defense, the FBI, 
the CIA, and other intelligence agencies to do their jobs and 
provide us with critical information. Unfortunately, we were 
completely caught off-guard on September 11, and these agencies 
must make necessary reforms to ensure that we are never in that 
position again.
    I look forward to working with the administration, and the 
Members of this Committee on creating this new department and I 
appreciate the time Governor Ridge and our other witnesses have 
taken today to be with us. Thank you.
    Chairman Lieberman. Thank you, Senator Bunning. Senator 
Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks, Mr. Chairman, and I will say to my 
friend and former colleague, dear colleague, welcome, and we 
are delighted that you are here today.
    I want to lead off my comments, Mr. Chairman, simply by 
extending to Governor Ridge our thanks, our thanks for his 
continued service to our country, our thanks for his 
willingness to step down as governor in mid-term, and as an old 
governor, I know how hard that is. I thank you for his 
willingness to endure extended separation from your family, and 
as one who knows his family, I know that is difficult.
    Thank you, governor, for your willingness to work long 
hours. Thank you for your willingness to put up with a lot of 
second guessing from guys like me and others, not only in 
government, but outside of government as well. I am grateful--
we are all grateful for what you do every day.
    I have a lot of respect for the judgment of Senators Hart 
and Rudman, who we are going to hear from in a few minutes. I 
certainly have a lot of respect for Senator Lieberman, who has 
authored legislation to redraft/redraw the way we run homeland 
security in this country. There is a lot of expertise on this 
Committee, not only in the Members, but in the staff as well.
    I feel a whole lot better about our chances of crafting a 
plan that will work because you are going to be involved, 
Governor Ridge, and because those with whom we work, and the 
President and full administration are going to be involved to 
try to figure out not only what will sound good, what meets the 
common-sense test, but what will truly enhance not just our 
sense of security in this country, but will actually make us 
safer.
    We will get to a point here in a few minutes where we can 
ask some questions, and one of the questions I will be asking--
and I know others will, as well, and I think you are addressing 
it in your testimony--is this issue of sharing information, not 
just sharing information across intelligence-collecting agency 
lines, but acting on the information that we have received.
    The other thing I would say, as governors, from time-to-
time, we actually reorganize our State Governments. I am trying 
to think of how the size of this undertaking might compare to 
reorganizing a part of a State Government. We have about 25,000 
State employees in Delaware, when you add in all of the 
educators and police officers. My guess is, in the Commonwealth 
of Pennsylvania, it would probably be between 150,000 and 
200,000 people.
    So this job is about the size, I think, of reorganizing the 
whole government of the State that you once led, and I feel 
encouraged that we are going to do a better job because you are 
going to be involved in working with us, rather than sitting on 
the sidelines.
    Finally, I would just say, Mr. Chairman, heretofore, the 
success of this position, the ability of a person in the 
position of Governor Ridge to be successful depends, in large 
part, on his relationship with the President and the 
willingness of the President to listen to him and to act on the 
advice that he receives from Governor Ridge. His ability to 
serve well in this capacity also draws from the great respect 
that a bunch of us have for him.
    My guess is his family will not let him serve in this 
capacity forever, and at some point in time they are going to 
pull him back home and reclaim him as their own, and when that 
happens, whoever is going to take his seat and fill his role 
might not have the kind of relationship that he enjoys and, 
frankly, may not have the kind of stature and respect that 
Governor Ridge enjoys within this body, and throughout the 
government, and I think throughout the country.
    So it is a big day for us. It is an important undertaking 
for us, and it is one that we approach with that in mind. 
Frankly, again, I am just so pleased that we are going to be 
working on this one together, rather than at cross purposes.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Carper. Senator 
Fitzgerald.

            OPENING STATEMENT OF SENATOR FITZGERALD

    Senator Fitzgerald. Thank you, Mr. Chairman, and welcome, 
Governor Ridge.
    I want to dispense with an opening statement so that we can 
finally get to Governor Ridge's testimony. It has been almost 2 
hours. I just want to welcome you to the Committee. I want to 
emphasize that I hope Congress can move quickly to enact the 
necessary legislation to put the new department in place. We do 
not have that much time. We really have a few weeks in July and 
September to work on this.
    I hope that this Committee, and I appreciate the Chairman 
promptly convening this hearing, that we can work to merge this 
Committee's bill, the Chairman's bill that is already on the 
Senate floor, with the President's proposal. This is very 
important. It is more important than anything else we do, I 
think, because it is about protecting our people here at home, 
and so I look forward to working with Governor Ridge.
    I compliment you for your hard work in protecting our 
Nation thus far and for your solid proposal. I also want to 
thank Senators Hart and Rudman for their important 
contribution.
    So thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Fitzgerald.
    I thank all of my colleagues for their opening statements. 
Sometimes Senator Thompson and I only do the opening 
statements, but this is a matter of such importance that I 
wanted to give each Member of the Committee of both parties a 
chance to speak, and I think it was well worth it. I appreciate 
your patience in sitting through it, Governor Ridge.
    I thank my colleagues for their thoughtfulness. Some of 
them have raised some very reasonable questions. I thank them 
for their sense of urgency because, unlike some of the other 
great reorganizations, creation of the Department of Energy or 
Department of Education or Department of Transportation or even 
the Department of Defense in 1947, in this case, the enemy 
really is at our door. I mean, the enemy has really struck us 
here at home, and there is a great sense of urgency in doing 
this work together.
    My impression from the opening statements is exactly what I 
think all of us would want. We are on the same team, and we are 
on the same team with you, Governor Ridge, and with the 
President. I hope that the Committee can go to the floor united 
on a proposal. If, per chance, we do not, I am confident that 
the divisions between us will not be partisan. That is exactly 
the way it should be.
    I thank you, Governor Ridge, for being here. We are 
honored. I believe this is your first official testimony before 
the Committee of the Congress.
    Governor Ridge. Yes, it is.
    Chairman Lieberman. Long awaited, much pursued, greatly 
anticipated, and I thank you for honoring this Committee by 
being here.
    Obviously, you had a distinguished history and record of 
public service and private life, as a Member of Congress, in 
public service, and Governor of Pennsylvania. It has been a 
pleasure to work with you, and I know that we will work very 
closely together to get this job done.
    I am pleased to call on you now. I think the least we can 
do for you, after having you sit through this, is to tell you 
to go on and speak for as long as you want to make your points. 
[Laughter.]

 TESTIMONY OF HON. TOM RIDGE,\1\ DIRECTOR, OFFICE OF HOMELAND 
                            SECURITY

    Governor Ridge. Well, first of all, Chairman Lieberman, let 
me thank you for the extraordinary courtesy that you, and 
Senator Thompson, and your Committee have shown to me, even 
prior to this day, when I testify publicly.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Ridge appears in the 
Appendix on page 77.
---------------------------------------------------------------------------
    I, frankly, felt it was very appropriate that I sit, and 
listen, and learn and catch a glimpse of some of the legitimate 
concerns that your colleagues have. I think there is unanimity, 
there is a shared sense of urgency, there is a shared 
commitment to getting it done. We know there may be some 
differences of opinion as to how we accomplish the goal, but I 
share the same optimistic tone that you do that we will get it 
done. As everyone on the Committee has talked about, we must 
get it done.
    So I have prepared a fairly lengthy testimony, and I would 
like to share with you an abbreviated version and then get into 
the questions and answers.
    Chairman Lieberman. Good.
    Governor Ridge. Thank you.
    To all of the Committee Members, I want to thank you very 
much for the opportunity to testify today in support of the 
President's historic proposal to create a new Department of 
Homeland Security. I am here in keeping with the President's 
very specific directive to me to appear before you to present 
and to explain this legislative proposal.
    The President has given me an additional responsibility, by 
virtue of Executive Order, to lead a Transition Planning Office 
in the Office of OMB, as we work with the Congress of the 
United States toward the goal of securing a Cabinet-level 
Department of Homeland Security. It is certainly in that 
capacity that I am prepared to testify not only before this 
Committee, but as you pointed out, Senator Lieberman, there has 
been some pent-up interest in my testimony, and we are going to 
do our best to respond to other requests as well.
    I want to reiterate personally the President's desire to 
work with Members of Congress in a bicameral, bipartisan way, 
and to thank all of you for the bipartisan support you have 
already expressed and the commitment to act on this proposal by 
the end of this session. There are other more optimistic time 
frames, and the President's instruction to us is that the 
Congress will work its will according to the schedule that it 
deems appropriate and your job is to work with them according 
to their schedule to get it done.
    As I mentioned before, lengthier testimony has been 
submitted for the record, so I would just like to make a few 
preliminary remarks.
    First of all, I wanted to assure Members of the Committee 
and Members of Congress that this proposal was the result of a 
deliberative planning process that really began with an effort 
led by Vice President Cheney a year ago in May 2001 and 
continued as a part of the mission of the Office of Homeland 
Security when it was created on October 8, 2001.
    My staff and I have met with thousands of government 
officials at the Federal, State, and local levels, with 
hundreds of experts and many private citizens. Throughout these 
discussions, we have constantly examined ways to organize the 
government better.
    The President's proposal also draws from the conclusions of 
many recent reports on terrorism, reports by blue-ribbon 
commissions, and you have identified the two primary authors of 
one that was a focal point of not only your proposal, I 
believe, Senator Lieberman, but obviously it is reflected in 
the President's proposal as well, that of Senators Hart and 
Rudman, the Bremer Commission, the Gilmore Commission, and as 
you can well imagine there have been a variety of reports from 
different think tanks around the country that we took a look at 
as well.
    It also drew on the legislative proposals of Members of 
Congress. We have had many discussions with them about various 
details of their individual proposals. I remember very 
distinctly a conversation I had with you, Senator Lieberman, 
about your proposal some time ago.
    This historic proposal would be the most significant 
transformation of the U.S. Government since 1947. The creation 
of this department would transform the current, and 
occasionally very confusing, patchwork of government activities 
related to homeland security into a single department whose 
primary mission is to protect our homeland. Responsibility for 
homeland security, as Members of Congress know, is currently 
dispersed among more than 100 different government 
organizations.
    I think we all agree we need a single department whose 
primary mission is to protect our way of life and to protect 
our citizens, a single department to secure our borders, to 
integrate and analyze intelligence, to combat bioterrorism and 
prepare for weapons of mass destruction, and to direct 
emergency response activities. With the creation of this 
department, we will put more security officers in the field 
working to stop terrorists and, hopefully, managed right, pool 
our resources in Washington managing duplicative and redundant 
activities that drain away critical homeland security 
resources.
    The proposal to create a Department of Homeland Security is 
one more key step in the President's national strategy for 
homeland security. Like the national security strategy, the 
national strategy for homeland security will form the 
intellectual underpinning to guide the decisionmaking of 
planners, budgeters, and policymakers for years to come.
    I will tell you there are really no surprises in the 
remainder of the national strategy to be released later this 
summer. From securing our borders, to combatting bioterrorism, 
to protecting the food supply, the majority of the initiatives 
the Federal Government is pursuing as part of our strategy to 
secure the homeland have already been discussed publicly.
    The strategy will pull together all of the major ongoing 
activities and new initiatives that the President believes are 
essential to a longer term effort to secure the homeland.
    I would like to just turn to the details of the President's 
plan, if I might, for a moment. I did not keep an accurate 
count. My sense it is just about every one of your colleagues, 
along with you, Senator Lieberman, have highlighted the need to 
do a better job with intelligence gathering, fusion, 
dissemination and action, and that goes to the heart of the 
highest priority of homeland security, and that is prevention.
    Prevention of future terrorist attacks must be our No. 1 
priority. It is a shared goal. Because terrorism is a global 
threat, we must have complete control over who and what enters 
the United States. We must prevent foreign terrorists from 
entering and bringing instruments of terror, while at the same 
time facilitate the legal flow of people and goods on which our 
economy depends. Protecting our borders and controlling entry 
to the United States has always been the responsibility of the 
Federal Government, yet this responsibility is currently 
dispersed among more than five major government organizations 
in five different departments.
    The new department would unify authority over the Coast 
Guard, Customs Service, Immigration and Naturalization Service 
and Border Patrol, the Animal and Plant Health Inspection 
Service of the Department of Agriculture, and the recently 
created Transportation Security Administration. All aspects of 
border control, including the issuing of visas, would be not 
only informed, but improved, by a central information sharing 
clearinghouse and compatible databases.
    Preventing the terrorists from using our transportation 
systems to deliver attacks is closely related to border control 
and the primary reason that we would ask the Congress of the 
United States to take the newly created Transportation Security 
Administration and graft it onto, in part, to Senator 
Lieberman's bill.
    Our international airports, seaports, borders, and 
transportation are inseparable. The new department would unify 
our government's efforts to secure our borders and the 
transportation systems that move people from our borders to 
anywhere within our country within hours.
    While our top priority is preventing future attacks, we 
cannot assume that we will always succeed. Therefore, we must 
also prepare to recover as quickly as possible from attacks 
that do occur. I had some experience with the Federal Emergency 
Management Agency as a Member of Congress, both in terms of 
their response to natural disasters that struck my 
congressional district, along with working with Senator 
Stafford on the revision of the Federal Emergency Management 
Agency back in the eighties. I am well aware of the core 
competencies that they have and the primary responsibilities 
that they have within this country.
    The Department of Homeland Security will build upon this 
agency as one of its key components. It would build upon its 
core competencies, and the relationship that it has established 
over years, if not decades, with the first responders as they 
turn out to respond to the natural disasters that normally 
brings FEMA to your community.
    The new department would assume authority over Federal 
grant programs for local and State first responders, such as 
the fire fighters, the police, the emergency medical personnel, 
the humble heroes that we kind of took for granted in our 
communities before September 11 and suddenly now are at the 
forefront of our efforts, as so many of your colleagues have 
indicated by their brief opening remarks, that we need to 
integrate into any national capacity that we develop to combat 
terrorism.
    This new department would build a comprehensive National 
Incident Management System that would consolidate existing 
Federal Government emergency response plans into one generally 
all-hazard plan. We enhance the capability of this department, 
we enhance the capability of FEMA. It will be not only better 
equipped to deal with a terrorist event, but, frankly, better 
equipped to deal with any other event to which they have 
historically responded.
    The department would ensure that response personnel have 
the equipment and systems that allow them to respond more 
effectively, more quickly and, frankly, to communicate with 
each other a lot better than they have been able to do so in 
the past.
    As the President made clear in his State of the Union 
Address, the war against terrorism is also a war against the 
most deadly weapons known to mankind--chemical, biological, 
radiological, and nuclear weapons. I do not think there is any 
doubt in anyone's mind, at least from my point of view there 
should not be, if our enemies acquire these weapons, they will 
use them, with the consequences far more devastating than those 
we suffered on September 11.
    Currently, efforts to counter the threat of these weapons 
are too few and too fragmented. We must launch a systematic 
national effort against these weapons that is equal in size to 
the threat that they pose. We believe the President's proposal 
does just that. The new department would implement a national 
strategy to prepare for and respond to the full range of 
terrorist threats involving weapons of mass destruction.
    The Department of Homeland Security would set national 
policy and establish guidelines for State, and local 
governments to plan for the unthinkable and direct exercises 
and drills for Federal, State and local officials, as well as 
integrating the Federal capacity and the response teams that we 
have in various agencies throughout the Federal Government. 
Again, several Members of this Committee have highlighted the 
critical nature of this reorganization around the need to 
establish even stronger partnerships, stronger relationships 
with State, local government, and the private sector. That is 
at the heart and is one of the primary reasons the President 
has proposed the reorganization in this fashion.
    The Department of Homeland Security would provide direction 
and establish priorities for national research and development 
for related tests and evaluations and for the development and 
procurement of new technology and equipment.
    Additionally, the new department would incorporate and 
focus the intellectual power of several very important 
scientific institutions, our national labs, on this mission as 
well.
    Finally, and certainly I think at the heart of most of the 
comments that Members of the Committee have made, this 
Committee would look at the new Department of Homeland Security 
and the unit that deals with information analysis and 
integration and infrastructure protection as perhaps the most 
critical component of this effort.
    Preventing future terrorist attacks requires good 
information in advance, actionable information that people can 
act upon. The President's proposal recognizes this, and it 
would develop the new organization with the authority and with 
the capacity to generate and provide that critical information. 
The new department would fuse intelligence and other 
information pertaining to threats to the homeland from multiple 
sources, not just the CIA and the FBI, but NSA, INS, Customs, 
and you are very much familiar with the other information-
gathering capacity and organizations we have within the Federal 
Government.
    It would also comprehensively evaluate the vulnerabilities 
of America's critical infrastructure and map pertinent 
intelligence. Take the threat assessment and match the threat 
assessment against the vulnerabilities, and once that is done, 
make recommendations or direct that certain protective measures 
or protective conditions are put in place. You get the 
information, you analyze it, and for the first time it would 
all be integrated in one place, and you map that information 
against the potential vulnerabilities, and if it calls for 
action, then the Federal Government directs the action that 
must be taken. We have never done that before. I am pretty 
confident that is something both the President and the Congress 
of the United States want to empower the new department to do.
    There is no question that the literally thousands of men 
and women who work for the organizations tapped by President 
Bush for the new Department of Homeland Security are among our 
most capable in government, and we must view them as not only 
capable public servants, but as patriots as well.
    We are proud of what they are doing to secure our homeland 
and call upon them to continue their crucial work while the new 
department is created. It is kind of interesting over the past 
couple of months, when I stepped in the new position, there was 
still a notion within the public, generally, that there were 
just a few people working on homeland security issues.
    But Members of Congress know and members of these 
organizations and departments know that many have been working 
for years, if not decades, on issues relating to homeland 
security. So, in fact, we have a capable group of people who 
have been working for quite some time on securing the homeland, 
and obviously we need them to continue to bring the same focus 
and the same commitment to their mission, as we go about 
reorganizing their agencies in a new department.
    This consolidation of the government's homeland security 
efforts can achieve greater efficiencies and free up additional 
resources for the fight against terrorism. These men and women 
should rest assured that their efforts will all be improved by 
the government reorganization proposed by the President. To 
achieve these efficiencies, the new Secretary will require 
considerable flexibility in procurement, integration of 
information technology systems and personnel issues.
    Even with the creation of the Department of Homeland 
Security, there will remain a strong need for the White House 
Office of Homeland Security. Homeland security will continue to 
be a multi-departmental issue, and it will require, continue to 
require interagency collaboration. Additionally, the President 
will continue to require the confidential advice of a close 
assistant. Therefore, the President's proposal intends for the 
Office of Homeland Security to maintain a strong role. The 
President believes this will be critical for the future success 
of the newly created Department of Homeland Security.
    In this transition period, the Office of Homeland Security 
will maintain vigilance and continue to coordinate the other 
Federal agencies involved in homeland security efforts. The 
President appreciates the enthusiastic response from Congress 
and is gratified by the many expressions of optimism about how 
quickly this bill might be passed. He is ready to work together 
with you in partnership to get the job done.
    As I mentioned today, earlier he signed that Executive 
Order to help match your accelerated pace by creating a 
Transition Planning Office, led by me and lodged within OMB to 
tap its expertise. One of the principal missions will be to 
ensure that we get you the information you need as you consider 
the new Department of Homeland Security. Until that department 
becomes fully operational, the proposed department's designated 
components will continue their mandate to help ensure the 
security of this country.
    During his June 6 address to the Nation, the President 
asked Congress to join him in establishing a sole, permanent 
department with an overriding and urgent mission, a mission I 
believe every single Member of Congress believes is their 
priority as well: Securing the homeland of America and 
protecting the American people.
    Extraordinary times call for extraordinary measures. We 
know the threats are real, we know the need is urgent, and we 
must succeed working together in this endeavor.
    President Truman did not live to see the end of the Cold 
War, but that war did end, and historians agree that the 
consolidation of Federal resources was critical to our ultimate 
success. Ladies and gentlemen, we too have that opportunity for 
leadership and for the same kind of legacy. I look forward to 
working with you and your leadership to establish that legacy.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Governor Ridge, for an 
excellent statement.
    Let me focus in the beginning of my questioning here on 
this matter that, as you said, engages all of us. This is: How 
do we improve the collection, analysis, and sharing of 
intelligence information, all of it obviously, to try to 
prevent terrorist acts before they occur?
    I wonder if I might approach this by asking you what other 
alternatives the administration considered before adopting the 
recommendation in the bill for the section on information 
analysis within the Department of Homeland Security as this may 
help us as well. I think there is a genuine concern in Congress 
about this matter and not yet a clear consensus at all about 
how best to deal with it. So I think we might be helped if we 
had some sense of the path down which the administration went 
before coming to the recommendation it has.
    Governor Ridge. Senator, the President believes that the 
CIA, as a foreign intelligence-gathering agency, must continue 
to report directly to the President of the United States and 
that the FBI must continue to remain an integral part of the 
chief law enforcement agency of this country; that is, the 
Office of the Attorney General.
    Upon that predicate, we took a look at some of the public 
concerns expressed by the Congress of the United States, some 
of the concerns expressed by Senators Hart, Rudman, and others 
with regard to the lack of a single point, a single venue where 
all of the information, all intelligence analysis is available 
for integration and a lack of a place where, once the 
information and intelligence is aggregated and analyzed, to 
match that threat and the potential threat against the critical 
infrastructure of this country and then to match that with the 
potential need, depending on the credibility of that threat, to 
give specific direction for protective measures.
    So the President's belief, again, that the CIA and the FBI 
should provide reports, assessments and their analytical work 
to the new Department of Homeland Security, but in addition to 
that information, that the new Secretary be in a position to 
aggregate all of that information in one place and then, if 
required, act upon it.
    Chairman Lieberman. Am I correct in understanding that in 
the administration's proposal, that the Information Analysis 
Section of the new department would not be involved in the 
collection of intelligence?
    Governor Ridge. Your assessment is correct, Senator.
    Chairman Lieberman. But it would be involved in analysis of 
intelligence information sent to it by the various intelligence 
agencies.
    Governor Ridge. That is correct.
    Chairman Lieberman. So that it would develop its own 
analytical capacity and analytical team.
    Governor Ridge. Correct, Senator. As you can recall, in my 
brief remarks, one of the reasons we are looking for some 
flexibility, generally, in the new department is to avoid some 
redundancies, but the President believes, and I suspect Members 
of Congress believe, having competitive analysis, have another 
set of experienced people looking at the same information, but 
perhaps from a different perspective would--this is one area 
where redundancy adds value. Again, I think that is at the 
heart of the President's idea. This could very well be a 
competitive analysis. But, again, this will be the only venue 
where all of the information gathered from all of the 
intelligence-gathering agencies and departments within the 
Federal Government could be reviewed.
    In addition to that--and I cannot underscore the importance 
of this enough--this is also the same agency that is going to 
have to do the critical infrastructure analysis and then make 
recommendations for people to act.
    Chairman Lieberman. Is it the intention of the 
administration and the bill to create, within the Information 
Analysis Section of the new department, the power to request 
data from the intelligence agencies, including raw data. In 
other words, that it is not just going to be a passive 
recipient of whatever the CIA or FBI decide to send it, but it 
is an aggressive customer?
    Governor Ridge. It is the intention of the department at 
the heart of this is if, after separate analysis, that there is 
need for additional information, if they choose to go back and 
look at the raw data that led to the report or the assessment 
or the analysis, that this could be secured. If there is any 
dispute, obviously, it could be resolved by the President of 
the United States, but there is the potential of that tasking 
back to the Agency that would be preserved in this legislation.
    Chairman Lieberman. As you know, in the bill that the 
Committee reported out, we set up a National Office for 
Combating Terrorism in the White House, and its purview was 
going to be larger than homeland security. It would include 
homeland security because that is part of the fight against 
terrorism, but it would also be the place where all of the 
other agencies of the Federal Government working to combat 
terrorism would have their efforts coordinated. That would 
include the Department of Defense, the Department of State, and 
intelligence and law enforcement agencies.
    I appreciated what you said. I was going to ask you a 
question about this because, obviously, if and when, we create 
the Department of Homeland Security, the office that you now 
hold will have responsibilities that will presumably diminish. 
So I wanted to ask you to talk a little bit more about how you 
see the White House office, post creation of that new 
department, and also whether the administration would be 
willing to consider broadening its jurisdiction to go beyond 
just homeland security, and to be a coordinator for the 
President, as an adviser to the President, of the government's 
total antiterrorism efforts?
    Governor Ridge. Senator, the consolidation of some of these 
departments and agencies will, actually, I think, be a very 
enabling turn of events for the Office of Homeland Security 
within the White House. One of the major challenges that I have 
experienced over the past several months is that you have so 
many agencies that are focused on homeland security. Now that 
you have one whose primary focus is homeland security, I think 
it will be actually an enabler. It will add value to the work 
that this individual performs.
    I do think that the initiatives that the CIA have 
undertaken over the past several months, and the reorganization 
that Bob Mueller has proposed within the FBI, and the 
information sharing and the collaboration that they have 
undertaken, and I suspect will continue to improve in the 
months and years ahead, go a long way toward addressing the 
concerns that you have with regard to integrating our effort to 
combat terrorism.
    For that reason, obviously, we are going to work with you 
on this legislation, but I think the enhanced capacity of both 
those agencies, coupled with the new Department of Homeland 
Security, would suggest to me that the result you seek to 
achieve will be done once those are completed.
    Chairman Lieberman. My time is up. Obviously, we will 
continue that particular discussion.
    Governor Ridge. Yes, sir, we will.
    Chairman Lieberman. Thanks, Governor Ridge. Senator 
Thompson.
    Senator Thompson. Thank you, Mr. Chairman, and thank you, 
Governor Ridge.
    Governor, I want to follow up on the Chairman's opening 
line of question with regard to the analysis function and the 
access to information, specifically, Section 203, in the bill.
    I was reading your summary of what the bill did, and you 
broke it down into three categories of information that this 
new team of analysts would be receiving. One--and I am 
paraphrasing--reports an analysis, not raw material, that would 
come to the Secretary without request. Is that correct, the 
first category?
    Governor Ridge. That is correct.
    Senator Thompson. That essentially would be the Secretary's 
people analyzing the analyzers or analyzing the analysis. In 
other words, these would be summaries, analyses, or reports 
that the intelligence agencies did, and they would come in that 
form to the Secretary.
    The second category has to do with information concerning 
vulnerabilities to our infrastructure, and that might include 
raw materials.
    The third category, as I understand it, is the one I want 
to focus in on because I am a little bit unclear about it. It 
would include raw materials that your analyzers would have 
access to with regard to matters other than vulnerabilities to 
the infrastructure if the President provides. If the President 
makes the determination that the Secretary should have access 
to that information, the Secretary does not even have to ask 
for it, it is supposed to come to him.
    I guess I am trying to try to figure out exactly what kind 
of material that would be. Because there you are really getting 
down to the raw data, the reports and so forth, that would 
provide your entity, really for the first time in this set-up, 
to make their own analysis, their own independent analysis, in 
addition to the analysis that they have reviewed that the other 
agencies have made.
    Can you identify for the Committee, when it refers to 
matters other than vulnerabilities, the kinds of information 
that the President could give the Secretary access to with 
regard to this raw material?
    Governor Ridge. Senator, let me see if I can respond to the 
very important question you have asked. There are several 
dimensions to it.
    First of all, the President believes that the new 
Department of Homeland Security should be tasked with its own 
information integration and analysis, but not collection. As 
you can well imagine, there is some very unique privacy and 
civil liberty concerns associated with that process. It is 
well-defined with regard to the CIA's activity and well-defined 
with regard to the FBI activity, and for that reason the 
President feels very strongly that the collection activity 
should remain in those institutions who are now guided by law, 
with oversight of the Congress, to collect material.
    Second, the concern that you raised--it has been raised by 
others with regard to the new department--simply doing analysis 
of analysis. The fact is that, by statute, they would be 
required not only to give the new department the analytical 
work that they had done, but the reports and the assessments 
upon which the analytical conclusions were drawn. I mean, here 
is a piece of potentially competitive analysis that might lead 
these men and women in the new department to come to a 
different conclusion or at least to say that this investigation 
or the tasking or the work of these agencies should move in 
addition to where they were moving or perhaps in an entirely 
different direction or task them to do both.
    So I think the fact that they are going to be provided not 
the raw data, I mean, there is a clear distinction there, for 
obvious reasons, and as you know--because so many Members of 
this Committee are also, I believe, on the Intelligence 
Committee--at some point in time there has to be a filter 
because there are literally thousands and thousands of pieces 
of information, data that come across desks and tables in the 
intelligence community every single day.
    So we start with the filter of collection, but task back 
the possibility of getting additional information to these 
agencies by virtue of the statute.
    The vulnerability assessment, Senator, is one that the 
President feels very strongly about because his predecessor, 
President Clinton, I think back in 1998, directed about a dozen 
Federal agencies to take a look at critical infrastructure and 
come up with a comprehensive plan by January 2003.
    In our research, while we understood and lauded the 
direction of the Presidential directive, like a couple of other 
things that some of the other Senators have referred to today, 
it just did not get done. So this will accelerate the fusion of 
the work that these other agencies have done and the work that 
the new agency will do, so that as we take a look at 
telecommunications, we take a look at energy, we take a look at 
our food supply, we take a look at financial institutions, we 
have some sense of what the vulnerabilities are, and then make 
an assessment as to what needs to be done to protect them.
    So, again, Senator, in a long response to a very 
appropriate question, the capacity to fuse and integrate 
intelligence, match it against vulnerabilities, and then 
ultimately, if the need arises, to give specific direction 
either to a department of the Federal Government, to an 
economic sector that appears to be in peril because of the 
threat assessment and the vulnerability to a company, to a 
city, then for this department to issue the warnings to give 
the specific direction.
    Senator Thompson. But there are circumstances here where 
the President can provide that the department have access to 
raw material, also.
    Governor Ridge. Correct.
    Senator Thompson. It has to do--and we will have to come 
back to this in a minute, I suppose. Another point I wanted to 
ask you about and ask your consideration is the threats of 
terrorism in the United States.
    In the statute, it talks about terrorist threat to the 
American homeland, threats of terrorism within the United 
States. I presume that is a deliberate delineation between 
terrorist threats to the United States and terrorist threats to 
our interest abroad. Obviously, most of the attacks that we 
have suffered have not been in the American homeland.
    Governor Ridge. Correct.
    Senator Thompson. And whether or not this department should 
have access to information that might constitute a terrorist 
threat to our embassies, a terrorist threat to our military 
personnel overseas is undefined. How do we determine, when this 
data is being collected by our agencies, which category it 
falls in?
    As you know, with regard to September 11, in looking back 
at it, we had a lot of information from a lot of different 
places abroad that turned out to relate very directly to our 
American homeland. It could have just as easily been 
discovered--we knew about a threat. We knew some of the 
personalities involved, some kind of a general threat, but we 
did not know where it was. So, presumably, our new department 
does not want to shut itself off from that kind of information 
until that the time where there is definitely a threat to the 
homeland itself.
    I would ask you, perhaps, to consider whether or not you 
might want to broaden this language a little bit so you could 
get access, whether it be in summary form or I assume the 
President would make a delineation as to when raw material 
should kick in, to a terrorist threat not only to the American 
homeland, but possibly to our other interests. Unfortunately, 
this delineation could come very late in the game and sometimes 
not until after the fact.
    Governor Ridge. Senator, I would suggest to you that, 
within the foreign intelligence-gathering community, within the 
CIA, there is, to your point, even greater sensitivity to that 
notion that there is a nexus between foreign terrorist 
information and potential domestic incidents. There has been 
for quite some time. In that context, that information is 
shared, on a daily basis, with me, and I suspect that that 
would continue to be part of the kind of information, again, 
very discreet and appropriate. You cannot burden--this is a 
Homeland Security Agency. There are volumes and volumes of 
information about foreign terrorist threats, but again the 
clear understanding that George Tenet has, and the President 
has, and the FBI Director has, and the Congress has that, from 
time to time, there are connections between that kind of 
information and a potential domestic attack. We are pretty 
confident it can be done.
    Senator Thompson. My time is up. I would just ask you to 
consider the possibility that someone from an agency, sometime 
down the road, might come to the Secretary and say, ``We had 
all of this information, but there was no indication that the 
threat pertained to the homeland,'' and it would have been 
information that you would like to have seen.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Thompson. Senator 
Levin.
    Senator Levin. Thank you, Mr. Chairman. My questions relate 
to that same area that Senator Thompson and the Chairman 
addressed.
    The provision in your proposed bill says that the Secretary 
would receive promptly all information relating to significant 
and credible threats of terrorism in the United States, whether 
or not such information has been analyzed if the President has 
provided that the Secretary shall have access to such 
information. That is the provision which you have just 
described.
    Why would the President not provide that the new Secretary 
of this new agency would have all information made available to 
his agency for assessment when it is information that relates 
to a credible threat of terrorism in the United States?
    Governor Ridge. Senator, I think the President has 
demonstrated his commitment and his focus on getting the 
intelligence-gathering community to work together more closely 
than they have ever worked before. He presides over the daily 
briefings, gives very specific direction, and there is a 
legitimate concern, I believe, on behalf of the administration 
that the new department not be viewed, and I think very 
appropriately so, by this country as an intelligence-gathering 
agency with regard to citizens of this country, and we should 
not be involved in the collection.
    Senator Levin. We are not talking about gathering 
intelligence. That is clear. We are talking about analyzing 
intelligence that has been gathered properly. Why would not the 
President provide that the new agency have access to all of 
such properly gathered information?
    Governor Ridge. Senator, we will. I mean, the new Cabinet 
Secretary, if he or she seeks additional information, can make 
the request----
    Senator Levin. I am not talking about that, Governor. I 
want to be very precise, and I think this is troubling a number 
of us.
    Governor Ridge. Let me get a copy of the language to which 
you are referring.
    Senator Levin. It says here that all information would be 
provided relating to credible threats of terrorism, whether or 
not the information has been analyzed, if--and I presume only 
if--the President provides that the Secretary has access to it.
    My question is the same as others are driving at here. Why 
would not all properly gathered information go to the new 
agency for analysis? Otherwise you are going to be splintering 
this process. You are going to have analysis continuing in the 
CIA. You are going to have analysis in the FBI.
    The new agency that we are talking about presumably is 
aimed, in your words, at fusing and integrating intelligence. I 
am talking about properly gathered intelligence. I do not see 
why that is not an automatic.
    Governor Ridge. There are pieces of information, analysis, 
that are unique to the presidency itself, that the President 
gets on a day-to-day basis. And this would preserve the 
presidential option to share that information with a new 
Cabinet Secretary.
    Senator Levin. You mean the information, instead of coming 
to the President from a Cabinet Secretary that is integrated at 
all, would go from the President to the Cabinet Secretary? I 
mean why would the Cabinet Secretary not have all of this 
information and have analyzed it and then present it to the 
President?
    Governor Ridge. There will be several people involved and 
several agencies involved in providing information to the 
President of the United States. Clearly the CIA does and they 
give this President, as they have given past Presidents, a 
daily report based on information that they have. They also 
share other information that they have gathered within the FBI, 
and in that process will be sharing additional information with 
the new Department of Homeland Security. The FBI, along with 
the CIA, give to the new department the reports, the 
assessments and the analysis. They will get raw data from the 
other intelligence gathering agencies with the Federal 
Government potentially. We can get raw data from the local and 
State police hopefully as we would build up the capacity to 
make sure that the information shared is going in at both 
directions. But the function, the primary function of this 
office is to integrate all of the information that is received 
from these agencies initially without the raw data. If they 
choose to go back based on their assessment, unanswered 
questions, or believe that perhaps the assessment was 
inaccurate or should be different, they have the capacity to go 
back and request the raw data.
    There is a tear line here, Senator between this agency 
becoming a collection agency and the access on a day-to-day 
basis to raw data----
    Senator Levin. I am sorry to interrupt you, but we are not 
talking about collection. We are talking about assessment of 
data.
    Governor Ridge. Well, they get that, Senator.
    Senator Levin. No, only, according to these words, if the 
President provides that the Secretary has access to the 
information, and it seems to me that it leaves the problem, the 
gaps, the cracks unanswered because right now we have a 
situation where the CIA and the FBI and other agencies do not 
share data. It is not integrated. The dots are not connected. 
What you are saying is your agency is not going to connect the 
dots, the dots being properly gathered intelligence. The new 
agency is not going to connect the dots. That would be done by 
an analysis inside the CIA. That will be done by an analysis 
inside the FBI. The trouble is they do not connect the dots as 
we have recently seen. So I would suggest that this issue, if 
it is unresolved in this way, that the President would have to 
provide that there be access to properly-gathered information, 
does not solve the problem that has not yet been solved despite 
efforts during the 1980's and the 1990's to save it. I mean we 
have been through this before, so I am still troubled by the 
failure to connect the dots, the information dots, in any one 
entity because it leaves unaccountable--there is no 
accountability here. If the FBI doesn't share the information 
with you, you do not know about it. If the CIA does not share 
information with the FBI, the FBI does not know about it. Where 
is all the relevant information properly gathered about 
threats, terrorist threats, going to be coordinated, fused, as 
you put it? I do not see that this language does it.
    Governor Ridge. Senator, perhaps then we need to work on 
the language, but the intent, specific direction from the 
President of the United States is to see to it--and I believe 
the language in the President's proposal assures that this 
department gets the series of reports, the work product of the 
intelligence community, and they have the capacity to perform 
or provide their own competitive analysis. They have the 
capacity to connect the dots the same way or potentially 
connect the dots in a different way. And if their reach would 
reach this department and those in charge of this integration 
and analysis would reach a different conclusion based on the 
same reports the CIA shared with the FBI, the FBI shares with 
the CIA, and both those agencies share with the new department. 
And that is the kind of redundancy, based upon the statutory 
requirement to these agencies to share that information with 
our department, it is the kind of competitive analysis the 
President believes will enhance our ability as a country to 
identify threats and be prepared to act on them. This is 
another opportunity to connect the dots, but unlike the CIA and 
the FBI, we will also be the repository of it, potential 
information from the State and local government, from the 
private sector, as well as access to the information and raw 
data it may see fit, from the INS, the Customs, the Coast 
Guard, the DEA, and other intelligence gathering agencies 
within the government.
    So, Senator I would just respectfully share with you, I 
think they do connect the dots. There is redundancy there, and 
apparently I need to sit down--we need to sit down with you to 
make sure that the language satisfies you, because the 
President intends for this agency, based on the reports, the 
assessments, and the analysis, to do their own independent 
effort in connecting those dots.
    Senator Levin. My time is up, thank you.
    Chairman Lieberman. Thanks.
    Governor, I think Senator Levin is on to something, or at 
least from my point of view. It troubled me as I read the 
proposal, which is why the additional condition that the 
President has to give approval for certain information to be 
shared with the department? In other words, if we go in this 
direction and we decide that all this consolidation should 
occur within an information analysis section, why not just 
spell it out in the statute? In other words, why would the 
President not want to have that information shared with his 
Secretary of Homeland Security? That I think is a question that 
we have to keep talking about.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Governor Ridge, I, too, find that language to be somewhat 
puzzling, and I am glad that you have committed to work with 
us, but I want to switch to a different issue.
    The INS has been plagued with problems for many years. The 
revelation that the Service sent extensions of visas to the two 
dead hijackers 6 months after the attacks on our Nation was 
only further confirmation of how dysfunctional this agency is. 
The House of Representatives recently passed legislation 
completely overhauling the INS, separating it into two 
entities, one of which would have a very clear enforcement 
focus. Yet as I read the plan put forth by the President, the 
INS would be moved into the new department, without reform. Are 
there additional plans to reform the INS? Because if all we are 
doing is moving an agency, that clearly has failed in 
performing its essential mission, to a new department, we are 
not really going to produce the kind of reforms that are so 
desperately needed.
    Governor Ridge. Well, Senator, as you recall, the President 
supported INS reform during the course of the campaign and the 
administration worked with the members of the House to work 
their will on the INS reform package that passed several weeks 
ago in the House of Representatives. One of the opportunities 
that this department will have to continue that reform effort 
will rely heavily upon, not exclusively, but heavily upon the 
ability or the willingness of Congress to give the new 
department some flexibility as it relates to personnel and 
resources.
    And so I think there are many ways we can go about changing 
the INS and reforming the INS. It is clearly the intent of 
Congress that it be done. I think one could also argue that 
trying to effect change of culture in the old agency with the 
old relationships may be more difficult than effecting a change 
of culture if you literally pick up the entity and put in a new 
department, with a new mission, new leadership and greater 
flexibility.
    Senator Collins. Thank you. I want to explore with you the 
administration's decisions not to move parts of the FBI and the 
CIA into the new department. Our government structure has long 
drawn a distinction between foreign intelligence gathering and 
domestic law enforcement with its web of procedural safeguards. 
Was that the reason that those two agencies were not moved into 
the new department? Our country has always been leery of 
blurring the lines between foreign intelligence gathering and 
domestic law enforcement. Is the administration's decision 
intended that those lines are preserved?
    Governor Ridge. Senator, I believe that is in part one of 
the reasons that the President's proposal does not include the 
CIA and the FBI as part of its Intelligence Integration and 
Infrastructure Protection Unit. It also is based upon the 
President's belief that the person in the Executive Branch to 
whom the CIA and the Director of the CIA should be reporting is 
not to a member of the Cabinet, that they should be reporting 
directly to the President of the United States. It is also 
predicated upon the President's belief that the FBI is very 
much at the heart of the chief law enforcement agency in this 
country, the Attorney General's Office, and it should not be 
removed from there.
    But he also recognized that much of the work they do, not 
all of the work they do, but much of the work they do is 
relevant and germane to enhancing the security of the homeland, 
and it is for that reason that there is very specific statutory 
language in the legislation that directs those agencies to 
provide certain kinds of information, analytical documents and 
reports, to the new department.
    Senator Collins. I want to follow up also on an issue that 
Senator Stevens raised in his opening remarks about the Coast 
Guard. I have talked to Coast Guard officials in my State who 
are expending enormous time, resources and energy to patrol 
harbors much more frequently, and to check foreign vessels that 
are coming into the port in Portland, Maine. They have 
expressed to me a great deal of concern about whether the 
reorganization and the movement of the Coast Guard into the new 
department, which on one level makes a great deal of sense, 
will undermine the more traditional mission of the Coast Guard 
and the important role that it plays, for example, in search 
and rescue operations. Such operations are extremely important 
to a State like mine with its strong tradition of fishing and 
the maritime industry. Could you please comment on how the 
traditional missions of the Coast Guard will be preserved 
despite the new priority of homeland defense?
    Governor Ridge. Senator, like you, I share enormous 
admiration for the Coast Guard. They had a unit in Northwestern 
Pennsylvania that I visited many times when I was a Member of 
Congress, and boater safety was at the heart of the mission on 
the Great Lakes, among other things. I have had the opportunity 
to visit with them and with the former Commandant Admiral Loy, 
and now Commandant Collins in the past several months. And you 
and I understand that this is a department of government that 
is probably underappreciated because the value is enormous. 
Historically, they have many missions. They do them all very 
well. They are cross trained to use their equipment and 
personnel to perform a variety of tasks, and I would say to you 
that is not unlike the challenge that other departments or 
agencies are going to be pulled into the Department of Homeland 
Security. It is not unlike the challenge that they will have. 
But inasmuch as the tasks exist because of congressional 
mandate, I mean they are obliged to perform those functions 
because Congress wants them to perform those functions. So in a 
sense the President has realized since September 11 that in 
addition to their traditional functions, they have an enhanced 
responsibility for homeland security. That is the reason in the 
2003 budget proposal he gives the Coast Guard the largest 
single increase that they have ever received before so they can 
begin to build up the additional capacity they need because 
their mission base has been expanded.
    But I am confident with the continued oversight and support 
of the Congress, and clearly the recognition by the new 
Secretary that they are multi-tasked, but the same folks who do 
the maritime work and the boat safety work, we also may want 
them to do port security or intercept the unknown vessel or the 
vessel with the manifest that raises some questions, either on 
the Great Lakes or in the ocean. So it is very difficult to 
pull out specifically personnel and equipment and platforms 
that could be assigned to one task and not the other.
    So I think they can perform both well. They have done it in 
the past. They have done it in the Department of 
Transportation. And I think the President's recognition that we 
need to build additional capacity because of the enhanced 
requirement with regard to homeland security, goes a long way 
in addressing the concerns, the legitimate concerns you have.
    Senator Collins. Thank you.
    Senator Thompson. Mr. Chairman, 30 seconds.
    Chairman Lieberman. Yes.
    Senator Thompson. You made a very good comment concerning 
Senator Levin's point. Before the issue gets cold, with regard 
to the Presidential prerogative issue, it occurs to me that 
besides the sensitivity of raw data and the fact the President 
might not want additional people seeing certain raw data 
because of the nature of sensitivity, it is possibile that the 
new agency would be inundated with truckloads of additional 
information every day. It would be in the same position that 
some of our other intelligence agencies are already in in 
trying to separate the dots if they received everything. And 
there probably needs to be some kind of a firewall or break 
there to make a determination as to which raw data.
    I am not sure if Section 203 gives the Secretary access to 
enough raw data, but I can see where the President might want 
to step in there and make that determination. So that is the 
good thing about these hearings. I think we have quickly 
identified an area where we need on the one hand that 
additional set of eyes to oversee something that is broken and 
on the other hand we do not want it to be so that we are so 
inundated that it becomes meaningless. I think it is going to 
require some good consultation and work with Mr. Ridge here. I 
think that balance can be struck, and I appreciate you for 
highlighting that issue.
    Chairman Lieberman. Thanks, Senator Thompson. And your 
comment demonstrates how complicated this problem is because 
while it is true if you dump truckloads of information every 
day at the Department of Homeland Security, it is a problem, 
but if you do not guarantee in some sense that all the 
information is coming together somewhere, then there is a 
danger that pieces of it will be overlooked. That is the 
challenge we have. How do we filter and understand the 
immensity of the information?
    I mean we have a story in the paper today about the 
National Security Agency intercepting the two communications on 
September 10 which were not translated or made available until 
September 12. This is out of the kind of cacophony of 
conversations that they are overhearing worldwide. This is a 
serious challenge for us to make this work.
    Governor Ridge. Again, Senator, I appreciate the 
recognition that there may be occasions when the new Secretary 
of the Department of Homeland Security should have access to 
that raw data, and again the legislation can provide for a 
tasking, but as Senator Thompson pointed out, at some point in 
time there has to be a filter. At some point in time you need 
the ability to get back and ask additional questions. But to 
inundate the new Secretary within this particular unit with 
reviewing and assessing all the raw data again after the CIA 
has done it, oftentimes in conjunction with the FBI, is just, 
the President believes, not the most effective use of the new 
analytical unit that would be set up in the Department of 
Homeland Security.
    Chairman Lieberman. Thanks. Senator Dayton, you are next.
    Senator Dayton. Thank you, Mr. Chairman.
    Governor, the saying goes that halfway measures avail us 
nothing. In this instance you would define the primary mission 
of the new agency to protect our homeland. There are agencies, 
like the Coast Guard, which are not in performance of that 
mission, yet they are included in this new agency that the 
President is proposing. Then there are others, such as most 
prominently the CIA and the FBI, where their primary mission 
does seem to be very much in conformance with the primary 
mission you have outlined, yet they are not included in the new 
agency, If we start from the side of complete inclusion of 
everything in the Federal Government that performs the primary 
mission of this new agency, give some rationale for why 
entities such as the CIA, the FBI and the other primary 
intelligence gathering and law enforcement entities were not 
included in this new agency. What was the tradeoff involved and 
why would we not be better off discussing all these 
coordination problems and not having everything assumed under 
one agency or department?
    Governor Ridge. Senator, the President is mindful, as we 
all are, that the concern about the relationship between the 
CIA and the FBI, the information shared, the information 
communicated, is an ongoing concern, and frankly, you have got 
hearings that are going on at this time relative to that. 
Whatever reform you may believe is necessary, if you conclude 
that additional reforms are necessary with regard to the CIA 
and the FBI is a matter yet to be determined, and Congress will 
work its way through those hearings and draw some conclusions 
and then take some actions.
    Regardless of that, the President feels very strongly, one, 
that that is certainly the congressional prerogative and he 
knows obviously the content of the hearings remains to be seen 
if it will lead to any demand or legislative reform. But any 
reforms--and there have been some done unilaterally within both 
the CIA and the FBI, would only go to enhance the quality of 
the work product we believe that will ultimately get to the new 
Secretary of the Department of Homeland Security. There is a 
distinction between collection and analysis. There needs to be 
a filter, so it is not another agency dealing with raw data 
from the entire intelligence community. It gives the 
administration, this President and future Presidents and this 
Congress and future congresses, a sense that there is a 
competitive, analytical unit out there that can take a look at 
most of the information--I mean from raw data to report is 
not--obviously it is a work product after somebody has secured 
some additional information, and I can understand the need from 
time to time and protect the option of the new Secretary to go 
back and take a look at the raw data depending on their 
analysis, that the President feels strongly on collection. It 
is a very appropriate filter that can be the case to go back 
and take a look at the raw data if their competitive analysis 
takes them in a different direction, and you build in, I think, 
institutionally a significant enhancement of our ability to 
identify the threat, but I cannot underscore again the 
importance of this particular unit within the Department of 
Homeland Security.
    It is important to have the redundancy in terms of the 
analytical capability, but you are going to take that and map 
it for the first time, which has never been done, with a 
vulnerability assessment. And depending on that mapping and the 
conclusions you draw, it is this agency that then says to 
somebody in your State, or says to another member of the 
Cabinet, or points to a sector of the economy, ``The threat is 
real. It is predicated upon this information. The vulnerability 
exists. We think you ought to do these things in order to 
prepare for it.'' That integration has never occurred anywhere 
in the Federal Government before.
    Senator Dayton. It has not, and I wonder if it has ever 
occurred anywhere on the planet, given the contradictions that 
you are establishing here. On the one hand you say that you 
want this new agency to be a customer for information generated 
by these other entities. Next you say that you want a 
competitive analysis to be done with the information they are 
provided. I am not aware, private sector, public sector or 
anywhere else, of anyone who could find a willing provider of 
information on product or anything else that is going to be 
used by the purchaser in a way that is competitive and has 
whatever effects that competition, if successful on this new 
entity, will have negatively on the other. I mean, one of the 
reasons it seems to me we have this difficulty in sharing 
information and this bureaucratic protectiveness of it, is that 
it is seen as having value. It is seen that sharing that with 
somebody else who might upstage or prove wrong or whatever else 
the fears are, is part of this mentality which results in 
nothing being provided unless it is extracted.
    And I go back to what Senator Levin said: How is this new 
agency to know what it is it does not know, what is not being 
provided to it. It seems to me you are setting up an inherent 
contradiction in these two parallel cooperative versus 
competitive tracks that is going to be inherently self 
defeating.
    Governor Ridge. Senator, first of all, Members of the 
Committee who have been working within the intelligence 
community for years and years, I think, appreciate the fact 
that competitive analysis is something that people who deal 
with this information do not view as an impediment or an 
obstacle or in any way denigrating the work that other agencies 
do. The fact that you have another group of trained 
professionals, based on experience, based on archives, based on 
intuition, based on a lot of things, it would take a look at 
the information that has been compiled. Then to take a second 
look or a third look is not in any way underlying the need for 
reform that the CIA Director has recognized and has moved 
himself to task within his agency. Bob Mueller has begun reform 
and been discussing the measures he would like to do with 
regard to creating an intelligence unit in the FBI and the 
reconfiguration of those assets. The fact that they are 
organizing internally, today as we speak, themselves to add 
value to their work product which would be shared with the new 
Department of Homeland Security, which would be again reviewed 
along with a host of other information that is provided by a 
variety of other agencies including down the road, State and 
local police, and I cannot emphasize again, the private sector, 
would give us I think a flow, a relationship between 
information, vulnerability and action that we need in this 
country.
    Senator Dayton. Governor, my time is up. I will just take a 
line from President Reagan, ``I do not know whether the 
competitive analysis is part of the problem or part of the 
solution.'' If we look back on September 11, I am not convinced 
that competitive analysis has served our shared desire to 
protect our homeland and to maximize that protection.
    And I just would leave this with you. I think you are 
adding another player into this equation, and I think you are 
going to compound the difficulties of getting that information 
provided to everybody. I hope you are certain that the 
cooperative goal of protecting our country would be better 
achieved than it has been heretofore by competitive analysis.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Dayton. 
Senator Voinovich.
    Senator Voinovich. I would like to make some big picture 
observations and get your reaction to them. Last year when Jim 
Schlessinger and Admiral Train testified before my Subcommittee 
on behalf of the U.S. Commission on National Security in the 
21st Century, their statement said that a precondition to 
fixing everything that needs to be repaired in the U.S. 
national security edifice was addressing the government's 
personnel problems. We used to have a coach at Ohio State by 
the name of Woody Hayes who said, ``You win with people.''
    If you look at the deficit that we have in the Federal 
Government today--we are borrowing $300 billion this year. I 
can see red ink all the way out. You have limited resources. 
You have been through this as a Governor. The Chairman held 
hearings last year about securing post offices, trains, metro 
stations, water systems--you name it. All of this requires more 
money. How do you prioritize all of this?
    Another vital issue is intelligence and the sharing of 
intelligence. It is the people and technology in those 
intelligence agencies. What are we doing now to address the 
inadequacies of these intelligence agencies?
    Then there is the issue of retirements and the ``the right 
size of agencies.'' The Partnership for Public Service says 
that one-third of the employees from five of the major agencies 
being merged into the new department are going to be eligible 
for retirement in 5 years.
    Former General Barry McCaffrey was before this Committee 
last year, and he said the Border Patrol needs 40,000 agents to 
properly do its job. I was with the Coast Guard this past week 
in Cleveland, and our new admiral said he cannot do the job 
with the people he has. In fact, the Coast Guard has cut a 
public service announcement for a new program called ``Eyes on 
the Water,'' enlisting private citizens to help them with their 
task.
    What I would like to know from you is what are you doing to 
address the issues of retirement and right-sizing the agencies 
that are going to be part of this new department?
    Governor Ridge. Senator, you have highlighted a challenge 
to the Federal Government generally, because these men and 
women in those agencies that would be merged into the new 
Department of Homeland Security will be retiring in that time 
period whether or not they become part of this new agency. And 
that, as you well know, is system wide. That is government 
wide. And frankly, one of the reasons that the President seeks 
additional flexibility as the administration would go about 
setting up this new agency with regard to procurement reform, 
personnel issues and the like, is to make the agency a lot more 
agile, and give it some of the tools that it may need to deal 
with the personnel challenges you are talking about.
    But we cannot do anything now because we do not have a 
department. I am sure that is an issue that Members of Congress 
and the leaders of these agencies have been looking at for 
quite some time, but it is a government-wide challenge that we 
are going to have to deal with in the Department of Homeland 
Security but every other department and agency as well.
    Senator Voinovich. Do you not agree that in some of these 
agencies you are going to need more people to get the job done 
if they are going to continue to do the missions that Congress 
is already expecting them to do? For example, the Coast Guard, 
does it need additional resources now that we have given them 
additional homeland security responsibilities?
    Governor Ridge. Senator, I think, from our review of the 
existing agencies that would be merged in here, there are 
probably people that could be redeployed to enhance homeland 
security, but I think the President has recognized in his 
budget in 2003, because of the vulnerability at the ports and 
the enhanced mission of the Coast Guard, and frankly, under 
funding over the past couple of years, he has requested the 
largest single increase they have ever received. So I think 
once you get the agency tasked and set up, once you give the 
new Cabinet Secretary an opportunity to reorganize the 
government, reorganize these agencies on the basis that we have 
to do it in a way that enhances the protection of this country. 
Once you give him a chance to reduce some redundancies, once 
you give him a chance to take a look at all the IT contracts, 
and there are some on that that are pending.
    Senator Voinovich. In terms of IT, I know there was a bill 
that passed the House, and I have introduced it in the Senate, 
that establishes an exchange program with the private sector to 
help the government develop its information technology 
capability. Since 1991 we have failed to fully implement the 
Pay Comparability Act. Roughly 75 percent of the people in the 
Senior Executive Service get paid the same amount of money. The 
FBI Agents Association tells me that their locational pay is 
inadequate for high cost of living areas such as San Francisco. 
Agents there have to go 60 miles outside the city to find an 
affordable apartment. There are some realities that the 
administration and Congress are going to have to face up to if 
we are going to deal with the personnel crisis we have 
confronting the Federal Government. I think the more we invest 
in people, the better off we are going to be.
    Governor Ridge. Senator, I am sure that the new Cabinet 
Secretary wants to attract and retain the best people possible 
in order to enhance what the President and Congress feels is 
their most important responsibility, that is to protect America 
and our way of life. It is for that reason that the President 
has requested, in this legislation that has gone to the Hill, 
some flexibility to deal with personnel and procurement issues 
to enhance that capacity.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich.
    After Senator Specter and I introduced the legislation last 
fall to create the Department of Homeland Security, I was 
greatly encouraged that the first colleague to come on as an 
original cosponsor was Senator Cleland. I was encouraged for a 
lot of reasons, not the least of which is all he has done to 
protect the security of the American people over his lifetime. 
So I am proud to call on you now, Max.
    Senator Cleland. Thank you very much, Mr. Chairman.
    And in that legislation, as I understand it, the head of 
the Homeland Security Agency sits on the National Security 
Council, which may be one way to solve this problem of access 
to intelligence and what role the intelligence communities 
play. I agree with you, Governor, I do not think that the 
Homeland Security Agency ought to be in the intelligence 
collection business, but certainly the intelligence analysis 
business except in the context of the National Security Council 
and what is threatening the national security. So I think the 
head of the Homeland Security Agency ought to have access to 
whatever intelligence members of the National Security Council 
have. And in the Lieberman bill, that I am a proud cosponsor 
of, that is the case. Do you have a comment on that?
    Governor Ridge. It does point to one of the ways that the 
bill addresses the concerns that the Members of Congress have 
with regard to giving that Secretary access to as much 
information as possible. So I mean we are in agreement there, 
Senator.
    Senator Cleland. Thank you, sir.
    Mr. Chairman, I request that the remainder of my questions 
be entered into the hearing record.
    Chairman Lieberman. Without objection.
    Senator Cleland. I would like to just focus for a moment on 
the CDC. I understand that in the proposal by the 
administration the head of Homeland Security relates to the 
agencies within the Department of Health and Human Services 
basically in a contractual relationship. In other words, if you 
need services from HHS you deal with the Secretary of HHS and 
may provide funds accordingly and so forth, that the CDC under 
your proposal is left intact in HHS.
    What I would like you to think about is an idea that I had 
that might help. In 1995 the President indicated that the FBI 
would be the lead agency in terms of a terrorist attack. About 
2 or 3 years later, 1998, the Congress said that the CDC should 
be the lead agency in terms of a bioterrorist attack. And when 
the anthrax attack happened, both agencies converged. The CDC 
identified, down in Boca Raton, Florida, the substance as 
anthrax. Then the FBI went in, declared it a crime scene, and 
in effect, muzzled the CDC somewhat. Both of those agencies 
competed thereafter. So we do not need competition. We need 
coordination, cooperation, communication as we mentioned 
earlier.
    One of the ways to solve this dilemma I have put forward, 
and that is that in the case of a terrorist attack, yes, the 
FBI is a lead agent, or in this case the Secretary of Homeland 
Defense could be the lead agent. But there may be a point at 
which someone concludes--in my view it was the HHS Secretary or 
it may be the head of the Homeland Security Agency--concludes 
that a threat to the public safety is occurring. Therefore, 
automatically, by a stroke of the pen, all of a sudden the CDC 
becomes the lead agent. In other words, sorting out the 
protocol on a public--not just a terrorist attack but when a 
public health emergency occurs.
    Interestingly enough, I understand the Pentagon has put 
forth some 50 different pathogens out there, only about 15 of 
which we have vaccinations for. So the threat of a biological 
attack, surely in the wake of the anthrax attacks, is a real 
potential threat. Sorting out the protocol though ahead of time 
I think is very important.
    I wanted to throw that concept out, that at some point, 
either with the head of the Homeland Security Agency or the HHS 
Secretary, have that authority to all of a sudden, boom, by the 
stroke of the pen, declare a national public health emergency, 
and all of a sudden then the CDC is triggered with its 8,500 
employees who are the world's greatest experts in detecting and 
identifying pathogens. A little concept I would like you to 
think about in regard to the CDC.
    Most of that agency has to do with about seven or eight 
different centers, focused on one thing or the other, but about 
34 percent of the total agency's mission now has to do with 
bioterrorism. I am looking at the question of whether or not we 
ought to have a center there in the CDC for bioterrorism, and 
whether it answers to the homeland defense secretary, or HHS, 
is not a big challenge to me, but I do think that the synergy 
that happens between those centers and with those professionals 
there is a big plus.
    So as we walk down this road, attempting to get a handle 
and establish protocol dealing with a bioterrorist attack and 
the run on the CDC, I would like for you to just keep those 
thoughts in mind. We do not have to have civil and internal 
turmoil between agencies every time we have a biological, 
bioterrorist attack. We can sort it out through some 
established protocol. And I think that is one of the 
contributions that you can make, and one of the contributions 
that legislation can make, that we work these kind of things 
out before the next biological attack hits the country.
    Do you have a response or a reaction?
    Governor Ridge. Yes. Senator, since you live with the CDC 
as part of your constituency every day, you more than most 
appreciate the talent and the expertise and the professionalism 
of the men and women that are there. I have had the chance to 
visit a couple of times. And the reason that they are 
specifically included in the legislation referred to through 
the Secretary of Health and Human Services is because there is 
a dual infrastructure here. That infrastructure should remain 
part of Health and Human Services. It has been tasked 
historically with dealing with public health issues, but now 
the new threat and the permanent condition we see on the 
horizon is the enhanced threat of a bioterrorist attack, so 
they can do the kinds of research we need that improves our 
knowledge in both arenas.
    So the notion that we would work through multiple agencies 
to establish a protocol in advance of an incident, I think is 
very consistent with putting several of these agencies 
together, having a strategic focus--remember, this is one of 
the four units of the President's proposal. There is a 
strategic focus to set priorities in conjunction with other 
Cabinet agencies and the other talent that we have in the 
Federal Government as it relates to countermeasures to weapons 
of mass destruction. Clearly, CDC is going to be a part of 
that, the NIH is going to be a part of that.
    So the notion that you have an intergovernmental memorandum 
of understanding based on future contingencies makes a great 
deal of sense, and I think, frankly, having a Department of 
Homeland Security will make it much easier to affect that kind 
of working relationship in anticipation of an event.
    Senator Cleland. I agree, and thank you very much for that 
opinion.
    Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Cleland.
    Senator Bennett. I probably should indicate, to give hope 
to both Governor Ridge and Senators Hart and Rudman, whose 
patience I appreciate, that I know Governor Ridge has to 
testify on the House side at 1 o'clock, so we are certainly not 
going to do any additional questions after we finish this 
round. And your reward for your superb testimony today will be 
that we will call you back to the Committee again.
    Governor Ridge. Good.
    Senator Bennett. You mean I have only 45 minutes?
    Chairman Lieberman. Well, I was thinking more along the 
lines of 7 minutes, actually. Senator Bennett.
    Senator Bennett. I detected there may be some issues we may 
have to----
    Chairman Lieberman. Yes, there is a lot here.
    Senator Bennett. Both in public and in private.
    Chairman Lieberman. We may want, next time, just to have 
all of us sit together around a table and talk out these 
issues.
    Governor Ridge. Good. Thank you, Senator.
    Senator Bennett. Thank you, Mr. Chairman.
    Back to my theme. Ninety percent of the critical 
infrastructure in this country is owned in private hands. All 
of the conversation we have had in this hearing so far about 
intelligence assumes intelligence that is gathered by the 
government from foreign sources, or if not foreign sources, at 
least domestic terrorist sources. And all of that information, 
all of that intelligence, rather, is classified because it is 
gathered by the FBI or the CIA or the NSA or whoever all else, 
the DIA. And it is classified information because if we 
disclose the information, in some cases we would be 
jeopardizing the source. In many cases with the CIA, you would 
be compromising, perhaps jeopardizing the life of some 
individual who shares that information with you. That is not 
the dynamic when we are dealing with information from the 
private sector, information that the private sector is very 
nervous about sharing with the government, and frankly, has 
every reason about sharing with the government because of past 
experience.
    I will give you an example. The EPA asked people in the 
chemical industry, ``Tell us where all of your chemical plants 
are that may have the potential of causing some kind of public 
health problem.'' They said, ``We are reluctant to share that 
information with you.'' The EPA said, ``It is essential for us 
to do our job to know that.''
    So the industry shared that information with the EPA, which 
then put it on its website, so that any potential terrorist 
would know the location of every single sensitive vulnerability 
in that industry, which is why the industry said, ``This is why 
we did not want to tell you. It is not that we do not trust you 
with the information. We do not want this information to be 
public and create a road map for attack on us.''
    We are having this debate right now about Yucca Mountain. 
And the argument is being made by the Senators from Nevada that 
there will be a great terrorist opportunity with the shipment 
of nuclear waste, high-level nuclear waste across the country. 
You want to know when that stuff is being shipped, but do you 
want everybody in the world to know when that stuff is being 
shipped? That is not intelligence information. That is regular 
business information. But when we are dealing with this new 
world of vulnerability--and again, 90 percent of the critical 
infrastructure in this country that is vulnerable is in private 
hands. We have to address the question of how private industry 
can share information with the government and not have that 
information be translated into terms that a terrorist can use.
    Now, I am shilling shamelessly for my bill that says--I 
understand that the administration has endorsed it--that says 
that this information, voluntarily given to the government--you 
can see how I am doing this here--voluntarily given to the 
government, is not subject to a FOIA request. FOIA anticipates 
that, says that such information need not be reported, but the 
FOIA definitions are vague. All my bill does is sharpen that. I 
am on this crusade because I do not want us to get away from 
the understanding of the private sector vulnerabilities that we 
have as we get tied up in legitimate conversations about 
intelligence gathered by our intelligence agencies.
    The private sector has created their own form of 
information sharing in ISACs, Information Sharing and Analysis 
Centers, but they keep that to themselves. If the new 
department is going to do its job, it is going to have to 
create cooperative relationships, not only with these ISACs, 
but with industry generally. Where the information can be 
shared, analyzed by government, the analysis shared back with 
the private sector, but in a way that does not provide 
information for those who wish this country ill.
    So again, that is my enthusiasm. I would like your reaction 
to it and any contribution you might have.
    Governor Ridge. Senator, the concerns that you have raised 
with regard to the necessity, one of the private sector sharing 
some very sensitive proprietary information to the Federal 
Government as we assess critical infrastructure 
vulnerabilities, is a concern that we have had based on our 
conversations with the private sector as we prepare--we are in 
the process of preparing a national strategy for the President, 
which is one of the tasks assigned to the Office Homeland 
Security. So, I want to be as supportive as I can with your 
efforts. As someone who believes that we need this kind of 
confidentiality and we need this kind of information, because 
the nature of the new threat involves terrorists taking 
advantage and targeting really economic assets and turning them 
into weapons. And you and I know, and I think we see potential 
weapons of catastrophic impact in States and communities around 
this country. So we need to know that kind of very 
confidential, sensitive vulnerability information. But some of 
it has a proprietary interest. They do not necessarily want 
their competitors to know that is what they are doing or that 
is what they have.
    And so we do need to come up with a mechanism so this 
becomes sensitive only as security information that we can use 
in the government, can be accessible to the Department of 
Homeland Security, because depending on assessment, depending 
on the credibility of the threat and how real it is, it might 
be the private sector that is the target. But we do not know 
it. We will not be able to assess the vulnerability unless we 
have that information, so I am encouraging you to continue to 
be such an aggressive and successful advocate for the change. 
And I might add, some of the companies are concerned about 
antitrust as well, as they have conversations with the Federal 
Government.
    Senator Bennett. Sure. That is part of my legislation. The 
image I want people to keep in mind, if this is a battlefield 
to protect the homeland, 90 percent of the battlefield is 
outside the government ownership and purview. Do you want to be 
the general that goes into battle with 90 percent of the 
battlefield being blind to you in terms of intelligence 
gathering? Because the CIA, the NSA, the FBI, and so on, are 
not involved in gathering this information. It must be 
voluntarily given and we have got to create the channels that 
make it possible for it to be voluntarily given, and in this 
battlefield, we are not necessarily talking about weapons of 
mass destruction, but we are talking about tools and weapons of 
mass disruption, which in terms of the impact on the economy 
can be just as great.
    Thank you very much.
    Chairman Lieberman. Thanks, Senator Bennett. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    My concern is with the workforce. Senator Voinovich said 
earlier that we must have an adequate workforce. And, I want to 
ask you why the President's proposal does not include 
recommendations for additional staff or resources.
    Let me give you an example. It was reported by the FBI unit 
to be transferred to the new department, and the FBI has a 
shortage of trained intelligence analysts. This is the same 
unit that would be expected to provide many of the intelligence 
analysts for the new department. Moreover, GAO found that this 
unit lacked the staff and technical expertise to fulfill its 
mission.
    Using this one example, my question is why do you believe 
the White House came to the conclusion that new staff and 
resources would not be required. Wouldn't the lack of resources 
impact the department's need for intelligence in a timely 
fashion?
    Governor Ridge. Senator, the President believes that if the 
new Secretary of Homeland Security is given the kind of 
flexibility he or she needs to reorganize this department in 
such a way that it significantly improves our capability of 
preventing a terrorist attack and protecting citizens and our 
way of life. If he or she is given the flexibility to reprogram 
dollars, to transfer dollars on an annual basis, to reorganize 
the department, in the short term, clearly they believe that 
out of that 170,000 people, qualified people, people who have 
been working very hard on homeland security issues for a long, 
long time, that ability to move personnel about, we should be 
able to fill any short-term needs that would exist.
    I think obviously if you take--and again, it will be up to 
the new Cabinet Secretary--depending on what Congress allows 
for purposes of the reorganization, what consolidation is 
permitted and what kind of flexibility the new Secretary is 
given with regard to that consolidation. There are a lot of 
critical decisions that will be made about personnel at a later 
date, but presently, as constituted for at least a short-term, 
the President very much believes that out of 170,000 
extraordinarily talented people, if we have some flexibility we 
can move them around.
    I do recognize the particularly innate challenge that you 
have addressed, however, with regard to analysts. And obviously 
that is a capacity that Bob Mueller looks to enhance, and I 
think he is looking to add another 500 or 600 analysts in his 
Central Intelligence Unit. I think George Tenet is looking to 
increase the number of analysts, and obviously, the new 
Department of Homeland Security will be looking to enhance 
their analytical capacity, building an analytical capacity. 
Some have been looking to the other agencies potentially to 
bring some people over, going to get some retired analysts 
potentially, but looking for flexibility to hire on a personal 
services basis some people out there perhaps in the academic 
community or others that have had experience.
    So you have highlighted a concern that Congress has, the 
President has and all of us. We want to enhance our analytical 
capacity, and for that purpose, I think giving this new 
Secretary some flexibility with regard to personnel decisions 
will enhance that interest, will enable him or her to do so.
    Senator Akaka. Thank you. You have referred to the movement 
of personnel from one department or agency to another. And that 
is why in my opening statement I was urging us to be careful 
about how we do this so we protect the rights of the workforce.
    You also alluded to the budget and your hope that we will 
not require additional resources to carry out the intent of 
homeland security.
    In addition to September 11, which was a great disaster for 
our country, there were lethal attacks on the U.S. Postal 
Service. The lethal attacks on the U.S. Postal Service caused 
death and illness to postal employees and customers from 
anthrax. The use of a bioweapon severely impacted the Nation's 
$9 billion mailing industry as well, and this is the kind of 
problem that I am highlighting.
    My question to you is how will the new agency work with 
agencies like the Postal Service, that play such a major role 
in our economy, and to protect that agency's mission and the 
people it serves?
    Governor Ridge. Senator, I believe it was the day after the 
President appointed me the head the Office of Homeland Security 
within the White House. Within 24 to 48 hours we had the first 
anthrax incident, first anthrax murder. And it was at a very 
early stage that I began to work with Jack Potter and the 
leadership of the unions that provide postal services in this 
country, and it was because of their leadership and their 
courage and their tenacity during a series of very, very 
difficult events, that I think we worked our way, as best we 
could, based on the knowledge that we had at the time, through 
a very terrible period for this country and for the men and 
women of the Post Office.
    The one thought that I would share with you immediately as 
to how this new agency would help postal employees and 
customers, is the strategic focus that the Department of 
Homeland Security will give to research and development as it 
relates to homeland security issues.
    The first impulse for the Postmaster General and for the 
Post Office was to purchase billions of dollars worth of 
irradiation equipment. They pulled back and said, that is 
dealing with the problem after it occurs. Why do we not take 
some of the hundreds of millions of dollars--and the Congress 
very appropriately, in the supplemental, gave them, I think, 
last year $500 million more, and I think there is another $89 
or $100 million in this year's supplemental. They pulled back 
and said, ``Let us explore the universe of bio-detection 
equipment that we could deploy to determine whether or not we 
have got a problem to start with.''
    So with this notion that working with government agencies 
based on what they need to serve not only the employees, but 
their customers, the people of the United States, that I could 
very much see the interaction between the Postal Service and 
the Department of Homeland Security, setting a priority for 
bio-detection equipment or protection equipment based on the 
kinds of threat that exists and the needs that they have.
    So I think that is the most immediate example of how I 
think they can, would and should work together.
    Senator Akaka. Thank you very much for your responses.
    Chairman Lieberman. Thanks, Senator Akaka.
    Senator Akaka. I have some additional questions that I will 
submit.
    Chairman Lieberman. Thanks, Senator Akaka. We will leave 
the record open for additional questions to be submitted. 
Senator Carper.
    Senator Carper. Thank you, Mr. Chairman.
    Governor, how long have you been in your new post?
    Governor Ridge. Senator, ever since October 8. I cannot 
tell you I have counted the days. I do not know, it seems like 
yesterday--9 months.
    Senator Carper. If we had in place the kind of structure 
that the administration is proposing in revamping our Federal 
Government to deal with the issue of homeland security, if we 
had it in place prior to September 11, how would this proposal 
have helped us to avoid that catastrophe?
    Governor Ridge. Senator, I think that is a difficult if not 
almost an impossible question to answer right now, because we 
do not know exactly how the new department would be set up. We 
do know that there is an affirmative obligation that I try to 
underscore that the CIA and the FBI would have to give their 
reports and assessments and analytical work to the new agency, 
whether or not another set of eyes or experiences would have 
been interpreted differently, if there would have been any 
enhanced capacity to connect the dots, I think, at this point, 
is the worst kind of speculation.
    I do think, however, that prospectively the notion that we 
will be able to integrate information and match it against 
vulnerabilities and take action, that there will be a strategic 
focus on the billions of research dollars that we have spent 
well and wisely in the past, but more on an ad hoc basis rather 
than based on an assessment of threat. These are unprecedented 
times. This is an enduring vulnerability. This is a condition 
that we are going to confront for a long, long time. And 
finally, we are going to have a strategic focus on where we 
place some of the public's money to come up with 
countermeasures of weapons of mass destruction. The Congress of 
the United States has been talking for a long, long time about 
an exit system. I think Senator Durbin pointed out in his 
opening remarks, 6 years ago the INS was tasked with developing 
one. And someone else talked about several years ago the INS 
was tasked to develop a database with the FBI based on 
fingerprints, so you have had all these ideas very relevant to 
homeland security in one measure or another, just kind of 
lingering out there. There is no command structure. There is no 
accountability structure, that the Congress of the United 
States calls in somebody and says, ``Look, you were tasked 2 or 
3 years ago. Plenty of time has elapsed. Explain to us why you 
haven't done this.''
    And so I cannot talk to you about how it could have been 
done in the past, but I do know the President likes to align 
responsibility and accountability. But it is not all good for 
the President. Might say it would be good for the Congress of 
United States. The Secretary of Homeland Security, I presume, 
will pick up those responsibilities to get that job done, 
hopefully given a reasonable period of time to do it, and if it 
is not accomplished, be accountable not only to the President 
but also accountable to you.
    Senator Carper. When you look back at the months since last 
October 8 and you think of the challenges that you faced in 
taking on this new responsibility, can you pick a single 
challenge that has just been especially difficult to face? How 
does the proposal of the administration better equip the next 
leader, the next Secretary, to address that challenge?
    Governor Ridge. The existence of an agency within the 
Federal Government, whose primary purpose is to meet the goal 
of the President and that is shared by the Congress of the 
United States, to protect American citizens and our way of 
life, substantially, I believe from the get-go, improves our 
ability because there is now a consolidated structure and a 
command structure, an accountability in place that did not 
exist before.
    But in addition to relying on the Federal Government to get 
the job done, the additional advantage--and I think Senator 
Lieberman felt this way in his proposal; other senators have 
alluded to it. This task is complex. It is monumental. It is 
unprecedented. And as well intentioned as we are in the Federal 
Government in all the programs in the Federal Government, we 
have to have partners, and the partners have to be in the 
private sector, and the partners have to be the States and the 
partners have to be the mayors. So not only does this 
structure, does this department enhance our ability to protect 
the homeland with regard to the deployment of Federal resources 
and people, but I think it is the best way to develop the kind 
of national partnerships that we need to protect ourselves as 
well.
    Senator Carper. In the questioning today, some of our 
colleagues have talked about areas where we need to invest more 
dollars, maybe in additional people to patrol our borders, 
resources at the INS. In the last administration, when they 
sought to reinvent government, they tried largely to do so in a 
way that shrunk the size of government, not grew it, in a way 
that allowed them to provide better services more efficiently. 
In the end they invested more money in a number of places, but 
they tried to find ways to spend less and achieve greater 
efficiencies in others.
    I think we are going to be real tempted, both in the 
Congress and in the administration, to invest more money, to 
invest more dollars in areas that logically make sense. I just 
hope that as we go through this we will also be mindful of the 
need to try to find those efficiencies, find ways to look for 
economies of scale, large or small, to even spend a bit less 
money in other ways. I think it was Senator Voinovich who 
talked about how a country which for the last couple of years 
was able to balance its budget for the first time in ages is 
now finding itself back in the tank. He said our deficit was 
$300 billion. It is $300 billion, and we just raised the debt 
ceiling by another $450 billion. So I just hope that we will be 
mindful of the need to, while we are trying to save real lives 
here, we are also spending real money here, and we have to be 
smart about both of those.
    I do not know if you have a comment you would like to make 
on that or not.
    Governor Ridge. Senator, I think the notion of bringing 
efficiency to government is something that you and I felt as 
governors we had the responsibility to do, and not necessarily 
for saving it, putting it back into necessarily government's 
pocket, but if you can save it in one area and use those 
resources in another area, you have enhanced the capacity of 
government without increasing the size of the budget. We both 
share that point of view----
    Senator Carper. I hope as we go through this process and 
fashion this legislation, hopefully put on the desk of the 
President a bill he can sign, that you will feel free in 
sharing with us how to save money as well as to spend it.
    Governor Ridge. I think we are going to clearly find at 
least a preliminary look at the interoperability of the 
technology that is available to these departments is rather 
remarkable. I think based on our experience as governors--I 
know we have talked about this a great deal--you can empower 
people and make them far more efficient, if you equip them with 
21st Century technology, but you cannot layer it, you have to 
integrate it. And I think as we took a look just at the first 
quick blush at the IT contracts that may be let with some of 
these other agencies going out, we would not want them to let 
those contracts in and of themselves. We would want to design a 
system so that you can fuse the data and the information from 
the INS and the Customs and the Coast Guard and everybody else. 
So I think there are quite a few places we can bring some 
efficiencies, and if you can save a few dollars there, then of 
course the new Secretary with the transfer authority can then 
deploy those resources someplace else, more personnel, more 
research and development. It creates more options for the new 
Secretary, and more importantly, more options for this country.
    Senator Carper. Mr. Chairman, my time has expired. Governor 
Ridge's time has not. And we look forward to continue to work 
with him for a good long while. Thank you.
    Chairman Lieberman. After this morning, I am grateful that 
Governor Ridge has not expired. [Laughter.]
    I have informed Senator Durbin that his questions are all 
that stand between you and the House, and even the possibility 
of getting lunch. And I always feel that no one should be asked 
to face the House on an empty stomach. [Laughter.]
    So Senator Durbin has said that he would try to keep his 
questions short.
    Governor Ridge. My former colleague from the House.
    Chairman Lieberman. I do not know whether he would care to 
comment on that.
    Senator Durbin. Thank you, Governor Ridge. As I reflect on 
the fact that you and Senator Carper and I got into this 
business at the same time 20 years ago in the House, I am 
gratified that you are where you are today. You were the right 
choice by the President, and I think you have done an excellent 
job.
    Let me follow through on the last question that relates to 
my opening statement.
    Governor Ridge. Yes.
    Senator Durbin. I talked about the glaring deficiencies 
when it comes to information technology, particularly at the 
FBI and the INS. To think that the FBI, 2 years ago on its 
computers, did not have access to the Internet, did not have E-
mail, still today does not have word search, which for $750 at 
a Radio Shack in Peoria or Pittsburgh you can buy; they still 
don't have it. To think that they still use teletype machines 
to transfer information between different offices, stone age 
technology that is still part of the premier law enforcement 
agency in America. It draws me to a conclusion that if we are 
going to do this and do it right, we ought to take a lesson 
from history. The Manhattan Project, 60 years ago, summoned the 
best scientific minds in America to come up with a device to 
end the war, and it did it effectively.
    And we have the same challenge today, a Manhattan project 
challenge, to get the best scientific computer/IT minds 
together, to put not only the Department of Homeland Security 
at the cutting edge, but also the FBI, the CIA, and related 
agencies, so that they can interface, they can communicate, and 
they can be effective. What do you see as part of this? I mean 
it seems to be kind of an adjunct to this discussion. We have 
talked about Departments of Homeland Security, but how are we 
going to do this Manhattan Project-type approach that really 
brings us up to date with all the technology currently 
available?
    Governor Ridge. Well, Senator, I believe that your goal of 
creating a 21st Century Department of Homeland Security that is 
empowered with the best technology on the market, every 
conceivable application being deployed within the new Office of 
Homeland Security is at the heart of what I believe the 
President hopes to work with Congress to create. It is pretty 
clear that some of the stove pipes that have been created among 
the agencies initially were created because of particular 
mandates given to them by Congress, but then once they were 
told to share information, they never adapted technology to do 
that. And the fact of the matter is, if we are to maximize our 
effort collectively to protect America, whether it is the unit 
that is dealing with intelligence sharing and infrastructure 
protection or it is the border unit, or it is the FEMA unit, 
this new Department of Homeland Security gives this Congress an 
opportunity to design, for the first time, a new department 
empowered with the best technology available, that once we 
determine what the policy is and what our mission is--we know 
what the general mission is, but again we have some other 
decisions to make with regard to the particulars of the 
agency--but once we decide what that mission is, getting 
together the best group of technology minds to look for 
solutions, not sell products--we will get to the products 
later--but to come up with a technological solution to empower 
this is something that we would welcome the opportunity to work 
with you and similar-minded members of----
    Senator Durbin. Take me up the organization chart. Assuming 
we have a Department of Homeland Security, a CIA, a FBI, and 
the need for the NSA, and all of these to communicate at 
certain IT levels, where do I go? Which box in the chart do I 
go to to make sure all of these are coordinated?
    Governor Ridge. Well, you will see in the recommendation, 
as part of the organizational structure we will have an 
information officer, a technology officer, but the----
    Senator Durbin. That is in the Department of Homeland 
Security. But what about these other agencies; who is going to 
bring all of these agencies into communication?
    Governor Ridge. Well, you have begun that process, as I 
understand it, with regard to the FBI. You have given Director 
Mueller, I think, the Congress has given Director Mueller 
several hundred million dollars, so that he can finally create 
an infrastructure where they can begin sharing information 
within the agency itself. It is one thing to look to them to 
share information externally. The Director recognized shortly 
after he arrived, that they were not even equipped 
technologically to share information with each other. So again, 
Congress has taken a leadership role in trying to bring some of 
these agencies into the 21st Century with new technology. I 
just think that real aggressive oversight and partnership 
between the new Department of Homeland Security with 
partnership with Congress will see to it that from the get-go, 
this agency is equipped with a kind of technology that is 
needed to meet the mission that you gave them perhaps even as 
long as 6 years ago.
    Senator Durbin. I have two questions and not enough time 
for both. I would, just for the record, indicate that if we are 
successful in creating this Department of Homeland Security as 
envisioned, we will also be creating the 13th Federal agency 
responsible for food safety. We currently have 12. Now we are 
going to add the Department of Homeland Security. I think that 
is mindless. I think we ought to get it together in terms of 
where we are going.
    But I really want to ask my question. Did you consider the 
Hart-Rudman approach suggested, the use of the National Guard 
as the front line of defense in homeland security, preserving 
it as a State-run entity, but meeting some national training 
goals, developing resources, really kind of redefining--or I 
should say returning to our origins for the National Guard as 
our homeland defense? Did you think about using that as part of 
this approach in the Department of Homeland Security?
    Governor Ridge. We read the Hart-Rudman report thoroughly, 
as evidenced by the President's initiative and grafted onto his 
initiative many of their recommendations. I would tell you, 
Senator, that it is the belief of the administration that the 
new unified command plan setting up a North American Command 
under the reconfiguration proposed by the Department of Defense 
will add value to the new Department of Homeland Security, 
because there will be a much more direct relationship from 
secretary to secretary with regard to the deployment of the 
National Guard.
    In response to an earlier question that one of your 
colleagues raised, this is another opportunity and 
responsibility for the two secretaries to plan in advance of an 
emergency as to how to deploy and under what conditions to 
deploy those assets.
    So clearly my experience with the men and women of the 
National Guard as Governor of Pennsylvania was as good and as 
positive as I believe most governors have felt and experienced, 
the ultimate citizen soldier who responds to the challenge at a 
moment's notice, and configuring them in the future, 
configuring their future deployment under certain circumstances 
on behalf of the Department of Homeland Security would be one 
of the most important and one of the first missions that the 
new secretary should undertake with the Secretary of Defense.
    Senator Durbin. Thank you, Governor Ridge.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Durbin.
    Governor Ridge, thanks very much. It has been a very 
helpful morning. We have covered a lot of ground. There is 
obviously some we have not covered. I know our staffs are in 
close contact. You and I, Senator Thompson and other Members 
will be. There have been important questions, some of those 
are--I have not heard anything today that tells me that we 
cannot or will not get this job done this session of Congress, 
so thank you very much.
    Do you need a note for Congressman Shays on the House side 
or---- [Laughter.]
    Governor Ridge. Well, you know, I think your note would do 
just fine, Senator. I appreciate spending some time with you 
today. Thank you very much.
    Chairman Lieberman. Thank you. Well done.
    Senator Hart and Senator Rudman, thank you very much for 
your patience, and for your presence here. As a measure of the 
high regard in which you are held and the fact that people are 
interested in what you have to say that at least the four 
Ranking Members of the Committee are still here at this hour to 
hear you.
    It struck me that Hart and Rudman may be competing with 
McCain and Feingold as the most sought-after tag team here in 
Washington.
    Gary, I said to the hearing on the House side last week, 
when Warren Rudman was there, that in the new age of security 
that we entered in on September 11, as we look back, you two 
are going to be the Paul Reveres of this age, in effect, your 
work and report--we are seeing that the terrorists are coming, 
unfortunately. We did not respond and organize quickly enough 
and well enough.
    We thank you for being here. We are interested in hearing 
anything you have to say, most particularly your reactions to 
the President's proposal.
    Senator Rudman. Let Gary go first.
    Chairman Lieberman. Is he the older, more senior of the 
two?
    Senator Rudman. Smarter.
    Senator Hart. I just look older.
    Chairman Lieberman. Senator Hart.

   TESTIMONY OF HON. GARY HART, CO-CHAIR, U.S. COMMISSION ON 
             NATIONAL SECURITY FOR THE 21ST CENTURY

    Senator Hart. Mr. Chairman, Senator Thompson, Members of 
the Committee, thank you very much for letting us come.
    To the end we can presume to speak for the 12 distinguished 
Americans who served on this Committee with us, and with whom 
we were honored to serve, I think it is safe to say that all of 
us our deeply gratified that the President has endorsed the 
proposal that we made to him very early in his administration, 
and has indeed gone well beyond the structural suggestions that 
we were able to make. It was beyond our capacity and our 
mandate to design a new National Homeland Security Agency, but 
we certainly tried to lay out the framework and the 
implementation for that.
    Objections have been raised. Each of them is answerable 
very quickly. The suggestion is that this is going to be too 
costly. That decision has already been made. I think the 
Congress and the President have concurred that something in the 
range of $37 or $38 billion will be spent on Homeland Security, 
and that will of course continue and increase as time goes on. 
The issue is whether it will be spent under a single 
coordinated command by one Cabinet officer accountable to the 
President, the Congress and the American people, or whether it 
will be disbursed among several dozen existing Federal 
agencies. The same is true of the allegation of scale, this new 
agency will be too large. It is already large. Whether it is 
too large remains to be seen. The fact of the matter is, all 
the pieces, 98 percent of this new agency is in existence. 
Again the question is, will they be reorganized and 
consolidated under a single command, or will they be 
disorganized and spread throughout the national government?
    The allegation is made that there will be ``bureaucratic 
resistance.'' I cannot imagine. I simply cannot imagine. The 
congressional committee chairperson or subcommittee chairperson 
or the head of an office in this government, standing before 
the American people and saying, ``It is more important that I 
maintain my personal, political prerogative than that 280 
million Americans are secured.'' And that is the issue.
    So if somebody wants to stand up and say, ``Let us keep 
things the way they are because I have my committee or I have 
my office, and that is more important,'' I think they will be 
and should be too embarrassed to make that argument.
    On the issue of intelligence that we have spent a good deal 
of time on this morning, it seems to me, and to our Commission, 
fundamentally apparent that intelligence collection and 
analysis is one function, operational organization of the 
Homeland Security is yet another. In 1947, the appropriate 
analogy, I do not think anyone really seriously suggested that 
the new Central Intelligence Agency should be in the Department 
of Defense. And likewise, the existing intelligence assets of 
this government should not be in this new operational Homeland 
Security Agency.
    Now, can an argument be made, and a strong argument, for 
reorganization of intelligence, the intelligence network in 
this government? Absolutely. That is a separate issue. The CIA 
and the FBI were designed or came to be designed to fight the 
Cold War. The Cold War is over. And yet they persist on as 
existing bureaucracies. I think serious thought ought to be 
given, by this Committee particularly, about what to do about 
that, but that seems to me to be a totally separate issue from 
the new Homeland Security Agency.
    One thing that interests me--and I cannot speak for my Co-
Chair person, Warren Rudman or the other Commission members--is 
the issue whether traditional functions such as collection of 
Customs duties can be maintained in the traditional agency, 
Treasury, and law enforcement aspects of Customs be moved to 
the new agency. In other words, should the new Homeland 
Security Agency be in the business of collecting customs? I 
think not. Should it be in the business of protecting 
fishermen? I think not. There are functions that can be left 
where they are and the law enforcement aspects of all those 
agencies consolidated. That is one person's opinion.
    I do want to emphasize, as Senator Durbin did earlier, the 
importance of the National Guard. This is not contained in the 
new legislation, but this Committee and indeed all the Congress 
ought to be thinking about the three arguments for the 
preeminence of the National Guard in this capacity. One is 
constitutional. The National Guard exists today as the heirs of 
the original constitutional State militias for the specific 
constitutional purpose of protecting the homeland. That is why 
we have two armies in this country. Second, statute prohibits 
the use of regular forces to enforce the laws of this country, 
the Posse Comitatus Act, and I for one think it ought to stay 
that way, and I think the military thinks it ought to stay that 
way. And third, the practical issue. 2,700 National Guard units 
are forward deployed around this country and, properly trained 
and equipped, they are best prepared to be the front line, the 
first responders.
    Finally, Mr. Chairman, the nature of conflict is changing. 
A couple of Members of the Committee have said that. I am not 
sure the political leadership in this country had adapted to 
the notion that what we are dealing with here is not quite war 
and it is not quite crime. A lot of the confusion about how to 
deal with the detainees is because of this blurring of 
distinctions and the changing nature of conflict.
    I would hope that this Committee as the oversight, or the 
future oversight committee for this new department, and the new 
department itself, indeed the entire government, will begin to 
understand the fact that conflict in the 21st Century is not 
going to look like conflict in the 20th Century, and declaring 
war on criminal conduct is probably going to end up, as some 
people believe with drugs, as the ultimate in folly.
    My closing thought is that 50 years ago or more, then-
President Dwight Eisenhower thought about shifting elements of 
the national government to the center of the Nation, 
particularly Colorado, and I thought he had a very good idea at 
that time. I have noticed that there is some talk about this 
new agency being housed somewhere outside Washington. Given my 
own considerable experience on this matter, I think if that 
happens there is probably a very good chance it will be West 
Virginia. [Laughter.]
    Senator Hart. But on behalf of my own State, I would like 
to say we would welcome this new agency. Thank you.
    Chairman Lieberman. We will take your recommendation under 
advisement, Senator Hart. Thank you. Thanks for those excellent 
thoughts.
    Senator Rudman, I say it at almost every--also I should say 
it in your presence: The bill that the Committee reported out 
is largely a legislative expression of your superb report. So I 
cannot thank you enough.
    Senator Rudman.

 TESTIMONY OF HON. WARREN B. RUDMAN, CO-CHAIR, U.S. COMMISSION 
           ON NATIONAL SECURITY FOR THE 21ST CENTURY

    Senator Rudman. Mr. Chairman and Senator Thompson, and my 
other friends on the Committee I served on for many years, 
thanks for inviting us. I join Gary in expressing our 
appreciation for what you did originally when you responded to 
our testimony long before September 11.
    This may be the single most important piece of legislation 
you will act on in your careers. I happen to believe that as I 
look back at 1947 or 1948, George Marshall created the 
Department of Defense, the Joint Chiefs of Staff and the things 
that got us through the last 50 years of the last century. It 
is important to note this is only a beginning. It is hardly the 
end.
    The structure the President proposes, your bill, our 
recommendation are very similar, identical in many ways. It may 
need to be changed here and there. My experience up here was 
usually you would take a bill like this, whatever it is, and 
when it comes out of the Congress generally it is better than 
it was originally submitted, and I think that is what will 
happen here.
    But then the implementation is so important, and I think 
the comments of Senator Voinovich and others about personnel 
are so important. I recognize, but you have got to be very 
careful not to take on too many fights that you could sink the 
entire proposal, and there are those who would like to use this 
as a vehicle to reform and change civil service. Whether you 
can do that, I do not know, but I do know that our report talks 
about human capital.
    I want to just make two comments because Gary has really 
expressed our collective thoughts of our group, and then take 
your questions. First, in our recommendation--by the way, there 
are seven recommendations in the report on Homeland Security 
and there are 43 in the whole thing. The Secretary of Defense 
has looked at it very carefully, and obviously adopted two or 
three of the key recommendations. The CINC North Bureau is in 
this proposal. The establishment of an Assistant Secretary of 
Defense for Homeland Security, I understand may well happen. 
Senator Levin may have a more current view than I have, but we 
recommended that. And of course the National Guard we said 
should maintain its dual role. It should keep its current role 
of being combat support. It is part of the integrated plan of 
the Joint Chiefs for deployment under various scenarios. We do 
not want to take that away. But the chances are that some of 
those things will never happen. The chances are that further 
acts of terrorism well may happen, and thus we recommend they 
be dually trained. My understanding is that is under serious 
consideration.
    Finally, be very careful about confusing what this new 
agency will do with the traditional roles of the FBI and the 
CIA. I have heard many of the same questions when I served on 
the Intelligence Committee. I chaired the President's Foreign 
Intelligence Advisory Board for 4 years and served on it for 8 
years. The majority of the work the agency does is not homeland 
security. The great majority of what it does deals with support 
for military operations, supporting the State Department, 
supporting strategic policy, and nuclear proliferation. It 
belongs where it belongs, and the President is absolutely 
right, the Director of the CIA ought to report to him.
    The FBI is traditionally a law enforcement agency. If you 
look at its history during World War II it did an extraordinary 
job in counterespionage. The war ended. It continued to work as 
an anti-KGB function within this country, and had some great 
success. Now it has to shift its focus into a whole new area. 
And Senator Hart raised it, others have raised it, something 
not for today, not for this legislation, do we want an MI5 in 
America? Go back and read the history. There was a very 
interesting collection that opposed it. It was J. Edgar Hoover 
and the American Civil Liberties Union, who together did not 
want to give the CIA an MI5 function for reasons that we could 
understand even today. Has that changed? I think that rather 
than debate that issue, which my sense is will not occur, you 
ought to look long and hard at what you have been looking at 
during the hearing. How is this analytic agency going to be set 
up within the department? What access will it have to what 
information? How will it operate? What kind of technology will 
they have? Those are the implementation questions.
    I have said for a long time that the problem with U.S. 
intelligence is not collection. We collect a lot. It is not 
analysis. We have too much to analyze. It is dissemination and 
how we do that, and that is a key role that you are going to 
have to sit around the table with a lot of smart people and 
figure out how it is going to look here. It has got to be 
spelled out in my opinion.
    So let me take your questions.
    Chairman Lieberman. Great, thank you. Let me begin with 
this question that has been the focus of a lot of our attention 
today. Senator Hart, let me ask you to build on a statement you 
made which is that we should not create a domestic intelligence 
agency, if you will, or division, within the new Department of 
Homeland Security, Senator Rudman has developed it a little 
more in terms of an MI5 type of operation, either outside of 
the new department or inside it. Why not, just to get your 
thoughts on the record? In other words, I am going to make the 
argument for it, though I have not reached any conclusion on 
it--if the FBI is now developing to meet the new terrorist 
threat, a new capacity for domestic intelligence to prevent 
terrorism, why not put it under the new department?
    Senator Hart. My study of the Cold War is that separate 
intelligence collection and analysis guaranteed objectivity. 
When the producer is also the consumer, conflicts of interest 
arise. People begin to tilt their judgments because they are on 
a different career path. If their career is moving up through 
the agency that is also consuming what they are producing, they 
may be inclined to say different things for their own personal 
or bureaucratic reasons. I think the history of intelligence, 
the intelligence profession, if you will, in this country, 
which you can date from the mid-20th Century; clearly there 
were predecessors, but it really began in the 1947 period as a 
serious professional enterprise--basically support the notion 
that the collection and analysis is one function, putting that 
information to use is a separate one, and they ought to be kept 
separate.
    Beyond that I can give you more philosophical reasons.
    Senator Rudman. Can I just comment on that? Is the 
Chairman's question that the part of the FBI that will deal 
with counter-terrorism--ought to go into the agency?
    Chairman Lieberman. Yes. Here is the argument. In other 
words, obviously traditional post-crime law enforcement that 
the FBI does: Investigating a crime that has occurred, 
apprehending the alleged criminal, will be kept where it is. 
But now if we are going to develop a whole new domestic 
intelligence counter-terrorism in the FBI, like stuff they have 
done before but bigger, should that not be outside of the----
    Senator Rudman. No, it should not, emphatically. I am going 
to give you the most important reason why it should not. You 
will then separate it from its collection. The collection of 
the FBI is not in a ``counter-terrorism unit.'' It is in every 
FBI office in every hamlet and city of this country. We saw it 
with the reports from Minneapolis and Phoenix. These are agents 
working on general FBI investigations who had it called to 
their attention that something funny is going on. They report 
that back to headquarters. Their collection comes from the 
field. The FBI has no independent collection, so you cannot 
separate it. If you did you would cause chaos in my view.
    Chairman Lieberman. OK. One of the questions that I did not 
get to ask Governor Ridge is about the way in which the Hart-
Rudman Commission, our Committee and the President handles the 
INS. In the end I think this may be one of the more 
controversial parts of the President's proposal in a political 
congressional context. The Commission, as I recall----
    Senator Rudman. We did not.
    Chairman Lieberman. I think you might have taken the Border 
Patrol but that is all.
    Senator Rudman. Right.
    Chairman Lieberman. We ended up taking some of the other 
law enforcement functions from INS, putting them in a new 
department, but we left all the so-called traditional 
immigration functions in the Justice Department. The President 
has taken all of INS--and you know the argument here, which is 
if you take all of INS and put it in a security agency, then 
the INS and the country, if I can put it that way, are not 
going to be as traditionally open and welcome to immigration as 
we have been.
    So I wonder if you have a comment on what the President's 
proposal is here?
    Senator Rudman. Well, we debated it, and we had quite a 
debate during the last year of our deliberations, and if you 
will look at the proposal and you look at the seven, that 
clearly is not there. The reason it was not there is we could 
not develop consensus on separating those very parts that you 
have just captioned from their home agency, Justice in that 
case, and moving them into this particular unit.
    However, in conversations I've had since the President's 
proposal was developed, with various people within the 
government, people make a strong case that there is more 
connectivity between these various parts of these individual 
agencies than we staked, and that we believed at the time we 
did this. That is one of the reasons that we did not. We 
thought that there was not that much connectivity.
    I will give you a good example. The head of the U.S. 
Customs service is someone I have known for a long time, have a 
lot of respect for, Bob Bonner, who called the other day and 
had a long chat about our proposal versus the President's 
proposal. He pointed out, as he will to you I am sure, that 
there is so much reliance on one part of that agency with the 
other, that to separate them starts to really impinge on their 
effectiveness. Now, he will have to make that case, but I know 
Gary and I have talked about separating fund raising, called 
tax collection, from law enforcement. He would say that is the 
wrong thing to do and he would give you some strong reasons for 
it. So I think my most important point is you have got a tough 
job. You have got to sit down with these people. You have got 
to listen to their arguments and decide whether they are turf 
arguments or whether they are policy arguments.
    Chairman Lieberman. Right. Last question for me in the time 
that I have. Since you made your report and since the 
developments of September 11 have occurred, as you pointed out, 
Department of Defense has now established the Northern Command, 
incidentally in Colorado Springs, and there is possible talk of 
an Assistant Secretary. Would you fit something into the new 
Department of Homeland Security statute that guarantees some 
kind of links or cooperation with----
    Senator Rudman. We did.
    Chairman Lieberman. You did?
    Senator Rudman. Yes, that is in our report, and I expect 
they will. We have a very strong connection between DOD and 
this department in terms of liaison because, Mr. Chairman, in 
the final analysis, if there was a weapon of mass destruction 
visited upon an American city, the only organization in America 
that can respond to it is the United States military. There is 
no one else. We all know that.
    Chairman Lieberman. Senator Hart, you have done a lot of 
thinking about national security policy. Do you want to add 
anything in this regard?
    Senator Hart. Yes, I am just perhaps more concerned than 
Warren is about the two-army principle, and the resistance in 
the regular military itself to performing a law enforcement 
function. There is a notion among some Americans that the 
Defense Department wants to run America. This is not true. 
Career military officers are the first people to tell you, ``We 
do not want a law enforcement function.'' Now, the scenario 
that Warren has cited, a catastrophic attack of some kind, 
obviously every asset of this country is going to come into 
play. Nobody is going to be worrying about the niceties of the 
Posse Comitatus Act.
    But short of that, we have an army, we have citizen 
soldiers for this purpose. They must be trained and equipped 
for this mission of response to an attack. But they can be 
there first. Under the statutes they should be there first. And 
then if additional help is needed, our vast military network is 
available.
    Now, I happen to think if the attack is on Denver, the 
Colorado National Guard is going to get there faster than the 
82nd Airborne Division in any case.
    Chairman Lieberman. That is right. Thank you very much for 
all you have contributed here. You set a high standard of 
public service after Senate service for Senator Thompson, who 
will most immediately confront this opportunity.
    Senator Rudman. Before Senator Thompson questions, I would 
like to refer the Chairman to page 17 and 21 of the final 
report, which diagrams the linkage between DOD and the new 
department as we envisioned it.
    Chairman Lieberman. Thank you. Senator Thompson.
    Senator Thompson. Mr. Chairman, thank you very much. These 
gentlemen do remind me that there is life after the Senate.
    Gentlemen, I think the reason why we are hearing so much 
today about the intelligence gathering activities is because so 
many of us feel that while what we are doing today is something 
we can go ahead and do and must do and should do. It is a 
broader problem and really more pressing, and maybe one that we 
cannot solve. It seems to me that one of the jobs that we have 
got here is to make sure we do not do anything in this Homeland 
Security endeavor that complicates that problem.
    And I can certainly see the logic of the Chairman's 
suggestion. We are now moving the FBI into a different 
category. The three top goals of the FBI now are things that 
probably would not have even been on a chart a short time ago, 
much less being the top three priorities. They have to do with 
before-the-fact activities, instead of after-the-fact solving 
the crime activities, and there is a logical distinction there. 
We have got to make sure that we do not do anything with regard 
to that in this process. It complicates the problem because the 
Congress and the President have to address these problems 
inherent in the FBI and intelligence gathering activities that 
have been on the public record for years. We have all known the 
difficulties and the transition the CIA has made from the Cold 
War to the current threat. We have all known that we have lost 
so many good people at a time when our requirements are much 
more sophisticated in terms of language skills and things of 
that nature than ever before. And, of course, these are 
problems that we have seen with the FBI over the past several 
years. So we welcome your comments and your help and assistance 
in that balance as we go forward.
    One of the things I would appreciate your view on is with 
regard to the President's proposal and the set up pertaining to 
the analysis of these reports. I think we have clearly got a 
lot of discussion as to exactly what they are going to get, 
when they are going to get it, and what the impetus for the 
provider of that information is going to be.
    My question is, getting back to the personnel issue that 
you have raised so many times, where are they going to get 
these analysts?
    Senator Rudman. That is the question of the hour. There is 
a shortage of analysts at all of the defense agencies. The FBI 
has extraordinary shortages. There are language issues 
involved, translation issues involved. You can pull all these 
blocks down, but unless there is some sort of a system that is 
going to give some incentive for language education--by the 
way, one of the recommendations in this report, as I know you 
know because we have talked about them, Senator Thompson, have 
to do with education. That is also a national security. We have 
got to do some things to influence people's careers to go into 
this kind of work.
    Senator Thompson. While we have got an immediate problem, 
we have got to create these analysts ourselves in the meantime.
    Senator Rudman. America's colleges and universities are 
turning out a lot of struggling bright young men and women, who 
I think would enjoy the opportunity to serve their country in 
what is a very challenging profession. But we are not doing a 
great deal on that, outside of what the CIA does with its 
recruiting, to educate people to the fact that here are those 
opportunities. I would commend that to someone to take a look 
at.
    Senator Thompson. And I would imagine we marry that with 
new information technology capabilities that are out there in 
the corporate world. It would allow you to determine certain 
trend lines and probabilities and things of that nature. There 
seems to me an awful lot in terms of personnel and information 
technology together that we are not using. Is this correct, 
Senator Hart?
    Senator Hart. I think we can turn this problem into an 
opportunity, and I concur completely with Warren on this. I 
have spent a good deal of time on campuses, including in 
Senator Lieberman's State, in the last few months, and the 
overwhelming reaction of young people in this country, very 
bright, intelligent young people, was they want to do something 
for their country, and we have not heard that for 10, 15, or 20 
years. So they need to be sought out, and what also is needed 
in the institutions is fresh thinking. So we can use a 
generational change here, bring in a new generation of people 
into the intelligence services, into this new department, and 
challenge them to think differently. What worries me about the 
new--very frankly, about the new FBI unit, whatever this is 
going to be, is if they put old timers in there, if they put 
people who are the heirs of the Cold War and who are used to 
chasing KGB agents in there, they are going to be thinking 
exactly the same way. And we are in a totally new age, and what 
is lacking is leapfrog generational thinking, that is, not Cold 
War, not traditional crime behavior, it is something totally 
new here. So the recruitment of a new generation of young 
people can be of benefit.
    Senator Thompson. And unfortunately, that is going to take 
some time, is it not?
    Senator Hart. It is.
    Senator Thompson. But you are right, if we get the 
analysts, if we get the right kind of people from these other 
agencies, what were they doing all this time anyway, I mean 
before these problems all became so apparent?
    Briefly on another subject, as I looked at this bill--well 
first of all, I looked at some of the comments some corporate 
leaders have made with regard to this effort, and they are 
pretty bleak. They talk about the odds of it succeeding as 
being pretty bleak. The new head of this thing is not going to 
have the dictatorial powers that a lot of people have when 
dealing with a board. They have got to deal with us and 
everyone else, and they give all these reasons why the 
difficulties. These reasons seem overpowering.
    And then I look at this bill. It is a rather short, brief 
piece of legislation which got my attention. Then I got to 
thinking that perhaps that is exactly what it has got to be 
because it seems to give the leadership of this new department 
the maximum flexibility. Flexibility with regard to management 
issues, flexibility with regard to personnel, procurement, 
things of that nature, might be necessary. It is very briefly 
dealt with in the legislation. But it allows, through 
regulation, the notification of Congress, and gives the 
Secretary the ability to do a lot of things that perhaps we 
should have been doing in other parts of government. Senator 
Lieberman and I have tried to do some of these things in the 
procurement area and in some other areas. In order to overcome 
these hurdles that all these corporate merger experts who have 
been through all of this before in much smaller versions, we 
have got to do something unusual ourselves. Perhaps that means 
that we give the Secretary maximum flexibility. We allow the 
new head to do some things that we perhaps not allowed before. 
Do you agree with that?
    Senator Rudman. I do and I want to make one comment. In the 
course of our deliberations, we discussed this very issue when 
we talked about the consolidation, and we did have people like 
Norm Ohrenstein on our group. I mean this was a group of 
extraordinary people with a lot of various knowledge. There is 
a reason we used two words, as I recall from one of our 
meetings, and I want to read it to you, which responds to your 
point precisely, and if you do not do this, then you are going 
to have a serious problem. We said, under recommendation No. 3, 
the President should propose to Congress the transfer of the 
Customs Service, the Border Patrol and the Coast Guard to the 
National Homeland Security Agency, while preserving them as 
distinct entities.
    Now, this is what these corporate people do not understand. 
I have read their comments, and with all due respect, most of 
them do not know what they are talking about because they do 
not understand this reorganization, as opposed to corporate 
mergers, which I am also very familiar with. We are trying to 
merge a whole bunch of different cultures into the same 
building. We said separate entities for a reason. The Coast 
Guard ought to be the Coast Guard. They ought to wear the same 
uniforms and the same line of command as true with Customs and 
so forth. Now, after a year or two, if the new department, 
though there were ways to do this more efficiently and the 
Congress agrees, then you can do that, but right now to do 
anything but transfer them as entities that are separate would 
be to invite disaster. I would make that point.
    Senator Thompson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Thompson. These were 
very good exchanges, particularly on that question of the 
talent pool to draw on for analysts. In the 1950's some of the 
most exceptional people were coming out of colleges and going 
into the CIA. We need information age kids today doing this 
stuff.
    Senator Rudman. We sure do.
    Chairman Lieberman. Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Let me add my welcome to two dear friends, former 
colleagues. You guys were great Senators, and you are great ex-
Senators. I just want to thank you for your contribution here. 
You showed tremendous foresight in your report.
    I want to go back to the intelligence coordination 
function. Senator Hart, I listened carefully to what you said, 
that you thought that this issue should be totally separate 
from the reorganization proposal that you have made, and I do 
not think it will be or can be or should be. In the proposal 
that the administration has given us, it clearly is part of 
their proposal. I do not know if you had a chance to study 
their proposal or not, but Section 203 clearly deeply involves 
this new agency in having access to all reports, assessments, 
analytical information, all information concerning 
infrastructure, whether or not the information has been 
analyzed, that may be collected, possessed, or prepared.
    And then again, regardless of whether the Secretary has 
made a request to enter into arrangements, Executive agencies 
will provide all reports, assessments, and analytical 
information to the new Secretary. The Secretary will receive 
all information relating to significant and credible threats of 
terrorism in the United States, whether or not such information 
has been analyzed if the President has provided that the 
Secretary shall have access--it is hard to imagine that a 
President would not provide for that access.
    Senator Rudman. I listened to that exchange between you and 
Governor Ridge, and it was like ships passing in the night 
there. I do not think you were connecting, either one.
    I think I understand the reason that language was written 
that way from my last 8 years on the----
    Senator Levin. We welcome your comment, but it is clear 
that the agency is going to be involved in a coordination 
function and an analysis function, and my struggle is to figure 
out where the buck should stop relative to the analysis of 
information of intelligence that comes in relative to terrorist 
threats. Right now we have a FBI Counter-terrorism Unit. They 
do analysis and assessment of the information that comes to 
them. They get that information through their own sources from 
the field, they get information through their Counter-terrorism 
Center in the CIA that they are a part of. We then have the 
Counter-terrorism Center in the CIA, which is supposed to now 
put together all of the information from whatever source. That 
is what exists. You folks are experts on this subject, and I 
think I am accurate, and when I read their website and 
understand what they do, as a member of the Intelligence 
Committee, they have got this function of putting together all 
of the raw information, trying to connect those dots. And now 
we are going to have another entity that has got a coordinating 
purpose and an analysis purpose, quite clearly. Governor Ridge 
talked about redundancy of analysis as being good. Maybe it is 
good. Basically though, I would like to know where the buck 
should stop, where should all the raw information come, 
providing it is properly collected. I do not want the CIA 
snooping on American citizens. I want their information about 
terrorism collected subject to the restrictions that are on the 
CIA relative to American citizens in the Constitution. I want 
the FBI to collect properly.
    But when you get information about a terrorist threat or 
activity that is in various places, somehow or other it has got 
to get to one place where dots can be connected, and that did 
not happen, and it has not happened. Where is that place? Is it 
going to be the new agency? You are both shaking your head no? 
It has not been the CIA's CTC. They have not successfully done 
that. And tell me where that one place is where we can hold 
accountable an agency head for that kind of analysis. So either 
one of you or both?
    Senator Rudman. Well, I will lead off here. In the first 
place, I think your question has to be answered in two ways, 
first, over the next 2 or 3 years, and then thereafter. I would 
say, Senator Levin, that there is no way that this thing can 
get up and running that they are talking about, and if you were 
to start to put all of those various dots into that place and 
ask that place to connect them, I think you are putting 
yourself at great risk for the next 2 or 3 years. You have got 
a steep learning curve for those people. You may not be able to 
get the people. I was here when we worked on a counter-
terrorism center. Frankly, if I was still on the Intelligence 
Committee, I would be spending a great deal of time finding out 
why it did not work better. And I assume you are.
    Senator Levin. We are.
    Senator Rudman. That is why it has to be for the immediate 
future, because they are taking the raw data, as you know, they 
prioritize it based on sources and methods, they decide on its 
reliability, they find out between themselves theoretically all 
the information through joint collection from both the agency 
and from the Bureau should be coming in there, as it pertains 
to terrorism. Of course we have to recognize--the public does 
not understand this--terrorism information is what, 5 or 10 
percent of the information that is collected. It comes in in a 
mass of information. It has to be separated. It ought to go 
there, and then it ought to go to this new organization that at 
the beginning will have a fledgling analytical unit to look at 
this.
    What you do 2 or 3 years later, I do not know. You know, 
some would suggest to take the whole CTC and put it over in the 
new agency. I would not recommend that. It disconnects it from 
its collection again. So that would be my answer.
    Senator Hart. I think the only solution to that problem 
would be if the President were to appoint a kind of mini 
version of our Commission, half a dozen people, very bright 
people with experience to go away for 6 months and come back 
and with the mandate to pretend we have no intelligence 
services today: What should we have for the 21st Century? And 
come back with a blueprint for 21st Century intelligence 
analysis, collection, distribution, and dissemination.
    The problem we are facing and you are facing is that we are 
trying to adapt on the run these Cold War institutions, namely 
CIA and pre-Cold War FBI, to this totally new world. I keep 
coming back to that same theme. But if you think linearly that 
the 21st Century is just a continuation of the 20th Century, 
you are making a very, very big mistake. It is not. With 
globalization, with the information revolution, with the 
changing nature and sovereignty of the Nation and State, the 
changing nature of conflict, we are in a totally new and 
different world, and we are using old institutions to try to 
adapt to this world.
    Finally, I do not think there is ever going to be a central 
keyhole through which everything passes for a simple reason: 
Different intelligence is needed for different purposes. We 
need economic intelligence for diplomacy. We need law 
enforcement intelligence to catch criminals. We need homeland 
security intelligence to protect our homeland. The military 
needs intelligence to conduct operations in Afghanistan. So to 
force all of that different kind of analysis through a single 
funnel is probably going to make a big mistake.
    Senator Levin. I think it was intelligence relative to 
terrorist activities which was the focus though, not the 
economic intelligence.
    Senator Hart. Well, then that is this agency.
    Senator Levin. Well, what Governor Ridge said is that this 
agency is a place--and I think I am quoting him here exactly, I 
tried to--``Where all information about terrorist threats will 
be available for integration, where it will be aggregated and 
analyzed.'' I think those were his words this morning. That 
surely is not what you two have in mind.
    Senator Rudman. My sense is, from listening to his 
testimony, from briefly looking at the legislation, which 
obviously needs to be fleshed out a bit--and that is what this 
is all about, what you are doing. It is one thing to say that 
all the raw data is going to be sent to the agency and 
analyzed, and something quite different to say that they will 
have access to that, but the basic work will be done where it 
ought to be done or within the traditional places where people 
know how to do it, at least for the next several years. Then 
decide if you want to change it, but you could not possibly 
take all the information, put it into this new analytical unit 
and expect them to come up with anything. They will come up 
with porridge is what they will come up with.
    Senator Levin. Do we not expect the CTC to do exactly that? 
Is it not exactly the function of the CTC right now?
    Senator Rudman. If it does not work, what makes anybody 
think it will work better if you put it someplace else?
    Senator Levin. I am not suggesting we put it----
    Senator Rudman. I know you are not, and I agree with you. I 
think the Committee has to bear down on the CTC. That is what 
we set up years ago. If it is not working, then it is going to 
have to be made to work, because there is no magic in changing 
its name or its address.
    Incidentally, Senator Levin, I think the answer to their 
question about why the President had the authority to withhold 
is probably there could be some things involving sources and 
methods that they did not want to transfer to that department 
because they want to launch a covert action, it could be all 
kinds of things. I think that is the genesis of that language.
    Senator Levin. That would be the exception though.
    Senator Rudman. That would be the exception, correct.
    Senator Levin. Thank you.
    Senator Rudman. I do not know that. I was not in on the 
legislation, but reading it, it makes sense to me.
    Chairman Lieberman. Thanks, Senator Levin. Senator 
Voinovich.
    Senator Voinovich. I tried to get across to Governor Ridge 
this whole issue of allocation of resources. I have sat down 
and tried to figure out how much it would cost us to really 
secure the homeland, and I have concluded that the best 
investment of money would be in intelligence. If we can really 
get that down pat, then it would eliminate the need for a lot 
of the investment that we are making in security. I do not know 
whether my colleagues know this or not, but we are entertaining 
applications now from local fire departments to buy fire 
engines to ``secure the homeland.'' We have to look more 
carefully at where we put our money.
    Would you agree that foremost should intelligence, 
including the people and the technology, as the best investment 
that we can make in terms of securing our homeland?
    Senator Rudman. Senator Voinovich, it is a great 
investment. I want to say something. I say it every place I 
testify and I will say it again here today. In baseball if you 
bat .500, you are in the hall of fame. In intelligence if you 
bat .750, you lose. And we are not going to prevent all of 
these horrible events from happening through intelligence. I 
wish I thought otherwise. I have just seen it for too long. 
After all, these terrorist organizations are not governments 
that you can focus on. We do not know who some of them are. We 
do not know where their cells are. We do not know what they are 
up to. And I read in the Washington Post this morning, the 
headline story, that the NSA picked up information that was 
translated the day after. What did that information say that 
would have given anybody any indication of what was going on? 
Nothing. It said something bad was going to happen. It did not 
say where, did not say how. So try not to put too much faith in 
intelligence, I think it is a false god we worship if we really 
believe that will do everything.
    Now, I do not disagree we ought to try, and we ought to put 
a lot of money into it, but it is not going to prevent it from 
happening. It never has in our history.
    Senator Voinovich. Well, the next issue is how far do you 
go to secure the homeland in terms of the dollars that we are 
allocating? I talked with the Director of the Office of 
Management and Budget, about airport security. They didn't 
realize how much they got themselves into, and I think they 
would like to come back to Congress and revisit how expensive 
airport security is turning out to be. You just get buried in 
costs.
    Senator Rudman. It is going to be very expensive. The 
question is, do you dare not spend it? And that is the 
question.
    Senator Stevens raised a very interesting issue. He talked 
about the Coast Guard. I mean the Coast Guard probably needs 
recapitalization. We said so in this report. It cannot possibly 
do what it is supposed to do with the current budget it has, 
the current equipment it has. It is a first rate service. They 
do a great job. They cannot do it all without new equipment and 
more people. To be expected to take on a whole new function in 
addition to all the functions they have, you cannot expect them 
to do it within the framework of the people and the equipment 
they have. That is unrealistic. And that is a decision----
    Senator Voinovich. How do we make people in the 
administration and Congress understand the importance of 
people? Since 1991, the Federal Pay Comparability Act has never 
been fully implemented because it is going to cost some money. 
Pay compression: Roughly 75 percent of our senior career 
executives receive the same compensation. These are things that 
we need to face up to.
    Senator Hart. Well a lot of people scratch their heads when 
we included in 21st Century National Security the issue of 
people. And we concluded, 14 of us including seven Democrats, 
seven Republicans, that it was that the declining caliber and 
quality of people in public service was a threat to our 
national security. It was not a good government issue. It was a 
threat to our national security. And when you begin to hear 
that after a quarter century of saying the government is the 
problem and so forth and so on, that is a sea change in 
thinking in this country. So at least that, I think, the age of 
the rather anti-government rhetoric may be somewhat over, not 
always over, but we have got to say to the young people what a 
President 40 years ago said to my generation. Public service is 
a noble profession. And that message has not been heard for a 
long time.
    Senator Voinovich. Well, one of the good things that is 
happening, and the Chairman knows about this, is Sam Heyman has 
endowed the Partnership for Public Service, and it has signed 
up 350 universities to showcase the opportunities that exist in 
the Federal Government today. But my concern is that we have a 
personnel system that is unresponsive to these young people 
when they come to go to work for us. We say we want you. Then 
your application is sent to some office, and then they review 
it and let somebody interview you, and then they send it back 
to the office, and 4 months later this really bright person 
that we want has a job? You cannot operate under those 
conditions.
    The last thing I want to ask you regards organization. The 
President's proposal includes the Homeland Security Department 
with a secretary. It also provides that the Office of Homeland 
Security in the White House will be led by an advisor, and then 
they are going to have a Homeland Security Council, both 
established by Executive Order. Senator Lieberman's proposal 
would establish the National Office for Combatting Terrorism in 
the White House, which will be led by a presidentially 
appointed Senate confirmed director. The director would have 
budget authority to ensure coordination across agencies and 
functions that will remain outside the new department, 
including intelligence agencies and the military. Are you 
familiar with this recommendation?
    Senator Rudman. Only recently, but we did recommend that 
there be remaining in the White House, in our report, there be 
a function. We did not go so far as to make it a statutory 
function as Senator Lieberman did in the original bill, but 
surely as the President needs a National Security Advisor, he 
believes he ought to have a Homeland Security Advisor, I would 
not disagree with that.
    By the way, I do not know whether this legislation contains 
it. I think it is absolutely essential that this new Cabinet 
officer be a part of the National Security Council. I mean with 
all due respect to the Homeland Security Council, I think he 
would have a seat at the table of the NSC. Evidently that is 
not contained in there. I would want to know why.
    Senator Voinovich. Well, if you have a director inside the 
White House to do the coordination, and you have a chief of 
staff, and then you have the Director of Office of Management 
and Management--you have a lot of people's hands involved, and 
I just wonder whether it is going to stand in the way of 
getting something done.
    Senator Rudman. That could well be, and certainly that is 
not our proposal.
    Chairman Lieberman. Thank you, Senator Voinovich.
    Before I go to Senator Dayton for the last questions, I 
want to make the Chairman's journalistic wisdom and stamina 
award for the day to Mort Kondracke, who is still here in the 
fifth hour of the hearing, a remarkable accomplishment. Senator 
Dayton.
    Senator Dayton. Mr. Chairman, I think you deserve to share 
that award. You have been here throughout as well.
    This is a remarkable report. I am looking here at Phase 
III, dated March 15, 2001, and the beginnings of one of this 
Commission's most important conclusions, the attacks against 
American citizens on American soil, possibly causing heavy 
casualties are likely over the next quarter century. Most 
commissions that make that kind of prediction have to wait a 
quarter century to be proven wrong.
    Senator Rudman. We wish we had.
    Senator Dayton. Your presence and foresight has been proven 
correct, unfortunately. I wish we had given you a more positive 
topic to explore, such as full employment or rising national 
incomes. However, as I read through this, it is predictive as 
well as descriptive. The capabilities are really extraordinary.
    Senator Hart. It was actually delivered to the President 
January 31, 2001, a month before that date. And, this was a 
consensus report. It was very extraordinary among such 
commissions, all 14 commissioners endorsed all 50 
recommendations, no dissenting views. So accommodation had to 
be made. Some of us believed that the attacks would happen 
sooner rather than later, and I think Warren said so. I know I 
gave a speech to the, oddly enough, International Air 
Transportation Association in Montreal, and headlined in the 
Montreal paper the next day was, ``Hart predicts terrorist 
attacks on America.'' That was September 6, 2001.
    Senator Dayton. Senator, you said in your remarks a couple 
questions before, that using old institutions to respond to 
this new world are going to be inadequate. Are we creating this 
approach, a new institution, or is it just a new assemblage of 
old institutions?
    Senator Hart. I think the logic of this--and the President 
followed it beautifully, whomever put this together--that it is 
the glue that brings this new agency together is the one simple 
fact, and that is, of all these 22 or more institutions, in the 
case of every one of them their job fundamentally changed 
September 11, 2001, whereas it used to be collecting Customs 
duties, now it is protecting the shore. Whereas it used to be 
keeping illegals out of our southern borders, now it is 
protecting our shore. And the list goes one. Whereas it used to 
be keeping salmonella out of the food supply, now it is keeping 
botulism out of the food supply. So the one thing that brings 
all of these entities together is their jobs have fundamentally 
changed, and what they used to do or something in the case of 
Customs Service for 200 years is now secondary to this primary 
issue of protecting 280 million people. So there is the logic I 
think.
    Senator Dayton. Senator Rudman.
    Senator Rudman. I agree totally, and of course there is 
something else. There is a common thread here. The thing--when 
we looked at this whole issue of national security--is reported 
in a fairly respected journal yesterday as the Hart-Rudman 
Anti-Terrorism Commission. Of course it was not. It was a 
charge of national security. And the amazing thing was within 
18 months we came to the conclusion that we had a terrible 
problem that no one was paying attention to, and that we had an 
asymmetric threat to a force that could not respond to it. When 
we looked at this of course, the thread was if you cannot 
protect the border, if you cannot keep most of the people and 
most of the things from coming in here that should not be 
coming in here, you all better forget about everything else. 
And that is where this proposal came from, and I agree with 
Gary totally.
    Senator Dayton. It is interesting to me, looking through 
this document, that you talk about the layered approach to 
protection and prevention being first. In fact, you said 
preventing a potential attack comes first. Most broadly, the 
first instrument of prevention is U.S. diplomacy. Meanwhile, 
verifiable arms control and nonproliferation efforts must 
remain a top priority. The second instrument of the homeland 
security consists of U.S. diplomatic intelligence and military 
presence overseas.
    I just want to note for the record that while we are 
focused here properly on this new Department of Homeland 
Security, it would seem that in your evaluation that we really 
have prior strategies that are going to be essential. I wonder 
how you would set it up now to address those levels of 
protection and prevention, and if you have any recommendations 
for us and should that be part of this purview at all?
    Senator Hart. I think the earlier question had to do with 
intelligence collection. We did have layers, prevention, 
protection, and response. Intelligence is key to prevention, 
but to put a finer point on it, the single most important thing 
we could do to protect this country today is to put whatever it 
takes in terms of financial and human resources in to reducing 
former Soviet stockpiles of weapons of mass destruction, 
including nuclear weapons and chemical and biological weapons. 
A year or so ago the administration was cutting back on the 
funding for those programs, Nunn-Lugar and others, that is 
folly. There are very few cases where money alone will solve 
the problem, but this is one where money will go a very long 
way, and just letting that old Soviet stockpile of all those 
weapons sit there is a prescription for folly.
    Senator Rudman. I would add to part of your question that, 
you know, something that is not the purview of this Committee, 
but certainly the purview of the U.S. Senate, why are we 
targeted? Why do people hate us so much? What is it that we do 
that brings the wrath of Islamic fundamentalists against us? 
Those are important questions. The answers are not easy. A lot 
of time is devoted in this report and the implementation report 
that we wrote to go with it, and it is worth somebody looking 
at, and we hope somebody will.
    Senator Dayton. I could not agree with you more, Senator, 
and I think it is not a matter of either/or, it is both and 
all. You are right, however, this diplomatic front is one last 
area to explore. I talked earlier with Governor Ridge about 
the--even if we have the willingness of these different 
entities and the people to communicate, share information, the 
ability to do so, we have been informed of the antiquated 
nature of the computer and software systems at the FBI and CIA. 
This new agency is going to come in with something hopefully 
new, state of the art, but incompatible with the others. Did 
your Commission look at any of those issues. And particularly, 
Senator Rudman, you made a comment that the private sector is 
ill equipped to evaluate what the public sector needs to bring 
these organizations. I am not sure the public sector has ever 
accomplished a merger of this magnitude with any degree of 
success. How are we going to accomplish all of this?
    Senator Rudman. I was referring to a comment by a fairly 
well known private head of a major corporation about they were 
going to merge these all together. He did not understand the 
proposal. That was my point.
    No, I think that the private sector has a great deal to 
contribute, particularly in the information technology area, 
and if you do not rely on them, you are not going to get it 
done.
    Senator Dayton. Thank you, Mr. Chairman.
    Chairman Lieberman. Senator Dayton, thanks for your 
substantial contribution to the hearing today.
    Please allow me to ask you one more question, which is 
this. In your report and in our bill, we created three 
divisions of this new department, roughly described as prevent, 
protect, and respond. The President has added a fourth 
division, which is this Chemical Biological Radiological 
Nuclear Countermeasures Division. And I wanted to ask your 
reaction to it. I will tell you the question I have, that part 
of it seems to be response, how do we respond to weapons of 
mass destruction? So it leads me to wonder why not put it under 
the response division that we have already created, essentially 
run by FEMA. The second part seems to be an R&D Science and 
Technology Development Division for Countermeasures, a very 
good idea. Actually we have a section on science and technology 
in our bill to incentivize, even give grants for development of 
not just in the area of response to weapons of mass 
destruction, but prevent and protect as well.
    So how do you react to this fourth division that the 
President's bill would establish?
    Senator Rudman. I am not sure, having looked at it, exactly 
what it is going to do. I think once you know that, you would 
have a better idea, so I do not really understand. I would have 
thought it would have fit under one of the provisions you are 
talking about, that science and technology would be quite 
separate. But I assume that somebody had a reason for doing 
that, and I just do not think you have heard that this morning.
    I daresay you are going to be very busy trying to 
understand and your staff to understand all of the parameters 
of this legislation, because--and there is no reason to think 
that you can't improve it.
    Chairman Lieberman. Sure.
    Senator Rudman. And you probably can, because they 
obviously have been under pressure to get the legislation up 
here, but I think that there are a lot of important issues that 
we have discussed here today, that really have to be looked at 
very closely. And my sense is, from listening to Governor Ridge 
this morning, that they are anxious to work with the Congress 
to get something that will work in a bipartisan way, and I hope 
you do that.
    Chairman Lieberman. Incidentally, that has been exactly my 
reaction to the President's attitude and Governor Ridge's 
attitude since the President made the declaration about 2 weeks 
ago supporting the creation of a department. I do not find them 
to be rigid on anything yet. I hope it stays that way.
    Do you have anything to add to that, Senator Hart, about 
that?
    Senator Hart. No, Mr. Chairman.
    Chairman Lieberman. You have been great. You have been 
great in the reports you did. You have been wonderful to be 
patient. You have been specifically helpful to me and the 
Committee in the questions that you have responded to. With 
your permission, we want very much to keep in touch with you as 
we develop this over the next couple of months. In the 
meantime, this Committee, and I would say your Nation, is 
grateful to you.
    The hearing is adjourned.
    [Whereupon, at 1:53 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0607.001

[GRAPHIC] [TIFF OMITTED] T0607.002

[GRAPHIC] [TIFF OMITTED] T0607.003

[GRAPHIC] [TIFF OMITTED] T0607.004

[GRAPHIC] [TIFF OMITTED] T0607.005

[GRAPHIC] [TIFF OMITTED] T0607.006

[GRAPHIC] [TIFF OMITTED] T0607.007

[GRAPHIC] [TIFF OMITTED] T0607.008

[GRAPHIC] [TIFF OMITTED] T0607.009

[GRAPHIC] [TIFF OMITTED] T0607.010

[GRAPHIC] [TIFF OMITTED] T0607.011

[GRAPHIC] [TIFF OMITTED] T0607.012

[GRAPHIC] [TIFF OMITTED] T0607.013

[GRAPHIC] [TIFF OMITTED] T0607.014

[GRAPHIC] [TIFF OMITTED] T0607.015

[GRAPHIC] [TIFF OMITTED] T0607.016

[GRAPHIC] [TIFF OMITTED] T0607.017

[GRAPHIC] [TIFF OMITTED] T0607.018

[GRAPHIC] [TIFF OMITTED] T0607.019

[GRAPHIC] [TIFF OMITTED] T0607.020

[GRAPHIC] [TIFF OMITTED] T0607.021

[GRAPHIC] [TIFF OMITTED] T0607.022

[GRAPHIC] [TIFF OMITTED] T0607.023

[GRAPHIC] [TIFF OMITTED] T0607.024

[GRAPHIC] [TIFF OMITTED] T0607.025

[GRAPHIC] [TIFF OMITTED] T0607.026

[GRAPHIC] [TIFF OMITTED] T0607.027

[GRAPHIC] [TIFF OMITTED] T0607.028

[GRAPHIC] [TIFF OMITTED] T0607.029

[GRAPHIC] [TIFF OMITTED] T0607.030

[GRAPHIC] [TIFF OMITTED] T0607.031

[GRAPHIC] [TIFF OMITTED] T0607.032

[GRAPHIC] [TIFF OMITTED] T0607.033

[GRAPHIC] [TIFF OMITTED] T0607.034

[GRAPHIC] [TIFF OMITTED] T0607.035

[GRAPHIC] [TIFF OMITTED] T0607.036

[GRAPHIC] [TIFF OMITTED] T0607.037

[GRAPHIC] [TIFF OMITTED] T0607.038

[GRAPHIC] [TIFF OMITTED] T0607.039

[GRAPHIC] [TIFF OMITTED] T0607.040

[GRAPHIC] [TIFF OMITTED] T0607.041

[GRAPHIC] [TIFF OMITTED] T0607.042

[GRAPHIC] [TIFF OMITTED] T0607.043

[GRAPHIC] [TIFF OMITTED] T0607.044

[GRAPHIC] [TIFF OMITTED] T0607.045

[GRAPHIC] [TIFF OMITTED] T0607.046

[GRAPHIC] [TIFF OMITTED] T0607.047

[GRAPHIC] [TIFF OMITTED] T0607.048

[GRAPHIC] [TIFF OMITTED] T0607.049

[GRAPHIC] [TIFF OMITTED] T0607.050

[GRAPHIC] [TIFF OMITTED] T0607.051

[GRAPHIC] [TIFF OMITTED] T0607.052

[GRAPHIC] [TIFF OMITTED] T0607.053

[GRAPHIC] [TIFF OMITTED] T0607.054

[GRAPHIC] [TIFF OMITTED] T0607.055

[GRAPHIC] [TIFF OMITTED] T0607.056

[GRAPHIC] [TIFF OMITTED] T0607.057

[GRAPHIC] [TIFF OMITTED] T0607.058

[GRAPHIC] [TIFF OMITTED] T0607.059

[GRAPHIC] [TIFF OMITTED] T0607.060

[GRAPHIC] [TIFF OMITTED] T0607.061

[GRAPHIC] [TIFF OMITTED] T0607.062

[GRAPHIC] [TIFF OMITTED] T0607.063

[GRAPHIC] [TIFF OMITTED] T0607.064

[GRAPHIC] [TIFF OMITTED] T0607.065

[GRAPHIC] [TIFF OMITTED] T0607.066

[GRAPHIC] [TIFF OMITTED] T0607.067

[GRAPHIC] [TIFF OMITTED] T0607.068

[GRAPHIC] [TIFF OMITTED] T0607.069

[GRAPHIC] [TIFF OMITTED] T0607.070

[GRAPHIC] [TIFF OMITTED] T0607.071

[GRAPHIC] [TIFF OMITTED] T0607.072

[GRAPHIC] [TIFF OMITTED] T0607.073

[GRAPHIC] [TIFF OMITTED] T0607.074

[GRAPHIC] [TIFF OMITTED] T0607.075

[GRAPHIC] [TIFF OMITTED] T0607.076

[GRAPHIC] [TIFF OMITTED] T0607.077

[GRAPHIC] [TIFF OMITTED] T0607.078

[GRAPHIC] [TIFF OMITTED] T0607.079

[GRAPHIC] [TIFF OMITTED] T0607.080

[GRAPHIC] [TIFF OMITTED] T0607.081

[GRAPHIC] [TIFF OMITTED] T0607.082

[GRAPHIC] [TIFF OMITTED] T0607.083

[GRAPHIC] [TIFF OMITTED] T0607.084

[GRAPHIC] [TIFF OMITTED] T0607.085

[GRAPHIC] [TIFF OMITTED] T0607.086

[GRAPHIC] [TIFF OMITTED] T0607.087

[GRAPHIC] [TIFF OMITTED] T0607.088

[GRAPHIC] [TIFF OMITTED] T0607.089

[GRAPHIC] [TIFF OMITTED] T0607.090

[GRAPHIC] [TIFF OMITTED] T0607.091

[GRAPHIC] [TIFF OMITTED] T0607.092

[GRAPHIC] [TIFF OMITTED] T0607.093

[GRAPHIC] [TIFF OMITTED] T0607.094

[GRAPHIC] [TIFF OMITTED] T0607.095

[GRAPHIC] [TIFF OMITTED] T0607.096

[GRAPHIC] [TIFF OMITTED] T0607.097

[GRAPHIC] [TIFF OMITTED] T0607.098

[GRAPHIC] [TIFF OMITTED] T0607.099

[GRAPHIC] [TIFF OMITTED] T0607.100

[GRAPHIC] [TIFF OMITTED] T0607.101

[GRAPHIC] [TIFF OMITTED] T0607.102

[GRAPHIC] [TIFF OMITTED] T0607.103

[GRAPHIC] [TIFF OMITTED] T0607.104

[GRAPHIC] [TIFF OMITTED] T0607.105

[GRAPHIC] [TIFF OMITTED] T0607.106

[GRAPHIC] [TIFF OMITTED] T0607.107

[GRAPHIC] [TIFF OMITTED] T0607.108

[GRAPHIC] [TIFF OMITTED] T0607.109

[GRAPHIC] [TIFF OMITTED] T0607.110

[GRAPHIC] [TIFF OMITTED] T0607.111

[GRAPHIC] [TIFF OMITTED] T0607.112

[GRAPHIC] [TIFF OMITTED] T0607.113

[GRAPHIC] [TIFF OMITTED] T0607.114

[GRAPHIC] [TIFF OMITTED] T0607.115

[GRAPHIC] [TIFF OMITTED] T0607.116

[GRAPHIC] [TIFF OMITTED] T0607.117

[GRAPHIC] [TIFF OMITTED] T0607.118

[GRAPHIC] [TIFF OMITTED] T0607.119

[GRAPHIC] [TIFF OMITTED] T0607.120

[GRAPHIC] [TIFF OMITTED] T0607.121

[GRAPHIC] [TIFF OMITTED] T0607.122

[GRAPHIC] [TIFF OMITTED] T0607.123

[GRAPHIC] [TIFF OMITTED] T0607.124

[GRAPHIC] [TIFF OMITTED] T0607.125

[GRAPHIC] [TIFF OMITTED] T0607.126

[GRAPHIC] [TIFF OMITTED] T0607.127

[GRAPHIC] [TIFF OMITTED] T0607.128

[GRAPHIC] [TIFF OMITTED] T0607.129

[GRAPHIC] [TIFF OMITTED] T0607.130

[GRAPHIC] [TIFF OMITTED] T0607.131

[GRAPHIC] [TIFF OMITTED] T0607.132

[GRAPHIC] [TIFF OMITTED] T0607.133

[GRAPHIC] [TIFF OMITTED] T0607.134

[GRAPHIC] [TIFF OMITTED] T0607.135

[GRAPHIC] [TIFF OMITTED] T0607.136

[GRAPHIC] [TIFF OMITTED] T0607.137

[GRAPHIC] [TIFF OMITTED] T0607.138

[GRAPHIC] [TIFF OMITTED] T0607.139

[GRAPHIC] [TIFF OMITTED] T0607.140

[GRAPHIC] [TIFF OMITTED] T0607.141

[GRAPHIC] [TIFF OMITTED] T0607.142


</pre></body></html>
